                                                                      Office               Hotline

  Office of Inspector General                                         202.692.2900
                                                                      peacecorps.gov/OIG
                                                                      OIG Reports
                                                                                           202.692.2915 ‫ ׀‬800.233.5874
                                                                                           Online Contact Form
                                                                                           OIG@peacecorps.gov




To:            Carrie Hessler-Radelet, Acting Director
               Stacy Rhodes, Chief of Staff/Chief of Operations
               Daljit Bains, Chief Compliance Officer

From:          Kathy A. Buller, Inspector General

Date:          November 21, 2013

Subject:       Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy
               (IG-14-02-E)

Transmitted for your information is our final report on the Evaluation of Peace Corps Volunteer
Sexual Assault Policy.

Management concurred with all eight recommendations. Based on the documentations provided,
we closed one recommendation: number three. Seven recommendations, numbers 1-2 and 4-8,
remain open pending confirmation from the chief compliance officer that the documentation
identified in management’s response and OIG’s comments has been received. In its response,
management described actions it is taking or intends to take to address the issues that prompted
each of our recommendations. We wish to note that in closing recommendations, we are not
certifying that the agency has taken these actions or that we have reviewed their effect.
Certifying compliance and verifying effectiveness are management’s responsibilities. Our
comments, which are in the report as Appendix C, address these matters. Please respond with
documentation to close the remaining open recommendation within 90 days of receipt of this
memorandum.

You may address questions regarding follow-up or documentation to Assistant Inspector General
for Jim O’Keefe at 202.692.2904 or to Lead Evaluator Heather Robinson at 202.692.2913.

Please accept our thanks for your cooperation and assistance in our review.

Attachment

cc:     Elisa Montoya, White House Liaison/Senior Advisor to the Director
        Daryl Sink, Acting Associate Director, Safety and Security
        Carlos Torres, Acting Associate Director for Global Operations
        Brenda Goodman, Deputy Associate Director, Office of Health Services
        Kellie Greene, Director, Office of Victim Advocacy
        Bill Rubin, General Counsel
        Sonia Stines Derenoncourt, Director, Overseas Programming and Training Support
        Karen Bickle, Director, Human Resource Management
        Patricia Barkle, Deputy Chief Compliance Officer
     Peace Corps
     Office of Inspector General




         Final Evaluation Report:
Peace Corps Volunteer Sexual Assault Policy
                IG-14-02-E

                                  November 2013
                                     EXECUTIVE SUMMARY
BACKGROUND
On November 21, 2011, the President signed into law the Kate Puzey Peace Corps Volunteer
Protection Act of 2011 (Kate Puzey Act).1 This Act requires the agency to: provide
comprehensive sexual assault risk-reduction and response training to Volunteers that conforms to
best practices; develop and implement a comprehensive sexual assault policy; establish an Office
of Victim Advocacy (OVA) and a sexual assault advisory council (SAAC); and to undertake
other efforts to enhance Volunteer safety and security and the Peace Corps’ response to victims
of sexual assault. The Kate Puzey Act requires the Peace Corps Office of Inspector General
(OIG) to assess agency compliance with these changes.

OIG must provide to Congress2 by November 21, 2013, reports on the status of the Kate Puzey
Act implementation:3

    1. An evaluation of the effectiveness and implementation of the sexual assault risk-
       reduction and response training.
    2. An evaluation of the effectiveness and implementation of the sexual assault policy,
       including a case review of a statistically significant number of cases.
    3. A report describing how Peace Corps representatives are hired, terminated, and how
       Peace Corps representatives hire staff, including an assessment of the implementation of
       performance plans.

OBJECTIVES
The following evaluation objectives have guided this evaluation of the sexual assault policy,
including a case review of a statistically significant number of cases.

            Has Peace Corps developed and implemented a sexual assault policy that complies
             with section 8B of the Kate Puzey Act?
            Has all overseas staff received training on the Peace Corps’ sexual assault policy?
            Are victims of sexual assault receiving the services mandated by section 8B of the
             Kate Puzey Act?

RESULTS IN BRIEF
Many elements of the Peace Corps’ sexual assault policy are in place, but full compliance with
the Kate Puzey Act remains a work in progress. Some of the Kate Puzey Act required elements
existed in Peace Corps policies prior to the Act; others, that will significantly change the
agency’s sexual assault response and support, are still being developed and revised. One

1
  Kate Puzey Peace Corps Volunteer Protection Act of 2011, Pub. L. No. 112-57, 125 Stat. 736 (2011).
2
  OIG must provide reports to the Committees on Foreign Relations and Appropriations of the Senate and the
Committees on Foreign Affairs and Appropriations of the House of Representatives.
3
  Pursuant to the Kate Puzey Act, in November 2012, OIG provided Congress with a report on allegations or
complaints received from Volunteers relating to misconduct, mismanagement, or policy violations of Peace Corps
staff, any breaches of the confidentiality of Volunteers, and any actions taken to assure the safety of Volunteers who
provide such reports. OIG is required to submit such reports biennially through September 30, 2018.


Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                                                 i
centralized sexual assault policy does not yet exist, although senior staff reported its intention is
to identify and communicate to staff which documents make up the agency’s comprehensive
sexual assault policy. Some significant new elements of the policy, such as restricted reporting
and sexual assault response liaisons (SARLs), among others, are scheduled to go into effect on
September 1, 2013.

The implementation dates for some of the new sexual assault policies and the November 2013
congressional deadline for this report limited the extent to which we could evaluate the
implementation and effectiveness of the agency’s sexual assault policy. We were unable to verify
the final content of some policies, or verify that victims received certain services, because the
policies outlining the provision of services had not yet been finalized or fully implemented. We
were also unable to evaluate whether the new and modified policies are having the intended
effects because as of this writing, they had not been implemented or there has not been a
sufficient amount of elapsed time since implementation to determine effectiveness.

We found that Peace Corps’ existing and draft policies included most of the required elements
mandated by the Kate Puzey Act; best practices were incorporated to the extent possible, and
experts were consulted in most circumstances. However, we also found that there is not a single
point of contact responsible for managing the agency’s development and revision of the policies
to ensure they contain the elements required by the Kate Puzey Act. Additionally, in some cases,
required services were either not explicitly included in policy or not consistently communicated
to staff. Without making these documents easily identifiable and accessible to staff, it will be
difficult to guarantee that future victims of sexual assault will receive all the required services.

We determined that the Peace Corps has trained some, but not all, overseas staff on the sexual
assault policies. Agency management stated that it could not meet this requirement until it had
finalized its comprehensive sexual assault policy. However, the agency has made efforts to
improve its approach to responding to victims of sexual assault and has trained some staff as
changes have been implemented. The agency intends to train all overseas staff on the relevant
policies after September 1, 2013.

Our analysis revealed that Volunteers who were victims of a sexual assault during our case
review time period were generally offered all applicable services that were available, although
Volunteers frequently declined some of the support options available to them. Some services,
specifically the creation of a safety plan and presenting legal and prosecutorial options to
Volunteers, were hard to verify due to a lack of documentation.

RECOMMENDATIONS
Our report contains eight recommendations, which, if implemented, should strengthen the
agency’s compliance with the Kate Puzey Act.




Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                                    ii
                                                     TABLE OF CONTENTS
EXECUTIVE SUMMARY .................................................................................................................... i

BACKGROUND AND EVALUATION OBJECTIVES ..............................................................................1

SECTION A: POLICY DEVELOPMENT AND IMPLEMENTATION .......................................................5
          POLICY REQUIREMENT 1: RESTRICTED AND UNRESTRICTED REPORTING ........................................................ 7

          POLICY REQUIREMENT 2: SEXUAL ASSAULT RESPONSE LIAISONS .................................................................. 9

          POLICY REQUIREMENT 3: APPLICABLE TO ALL POSTS ................................................................................... 11

          POLICY REQUIREMENT 4: LOSS OF LIVING ALLOWANCE ............................................................................... 11

          POLICY REQUIREMENT 5: FORENSIC EXAMS .................................................................................................. 11

          POLICY REQUIREMENT 6: EMERGENCY HEALTHCARE ................................................................................... 13

          POLICY REQUIREMENT 7: PROVISION OF COUNSELING AND PSYCHIATRIC MEDICATION ............................... 14

          POLICY REQUIREMENT 8: SAFETY PLAN ........................................................................................................ 15

          POLICY REQUIREMENT 9: TREATMENT PLAN ................................................................................................. 17

          POLICY REQUIREMENT 10: MEDICAL EVACUATION ....................................................................................... 17

          POLICY REQUIREMENT 11: PROVIDE APPLICABLE LAW ENFORCEMENT AND PROSECUTORIAL OPTIONS ...... 19

          CONCLUSION .................................................................................................................................................. 20

SECTION B: STAFF TRAINING .......................................................................................................22

SECTION C: CASE REVIEW ...........................................................................................................26

OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................................................35

INTERVIEWS CONDUCTED .............................................................................................................37

LIST OF RECOMMENDATIONS .......................................................................................................38

APPENDIX A: LIST OF ACRONYMS AND GLOSSARY .....................................................................39

APPENDIX B: AGENCY’S RESPONSE TO THE PRELIMINARY REPORT .........................................41

APPENDIX C: OIG COMMENTS.....................................................................................................47

APPENDIX D: EVALUATION COMPLETION AND OIG CONTACT ..................................................49
             BACKGROUND AND EVALUATION OBJECTIVES
Background on Sexual Assault at the Peace Corps
During 2010 and 2011 returned Peace Corps Volunteer (RPCV) rape and sexual assault victims
brought concerns regarding the agency’s response to their rape or sexual assault to the former
Peace Corps Director, elected officials, OIG, and the media. RPCV sexual assault victims,
agency officials, and subject matter experts testified before Congress in May 2011 and again in
September 2011. Victims voiced concerns that the agency’s response was inadequate,
uncompassionate, victim-blaming and ineffective, and cited a lack of staff accountability to, or
oversight of, the response effort. They called on the Peace Corps to adopt the highest standards
for response to and care for victims.

The Kate Puzey Act
On November 21, 2011, the President signed into law the Kate Puzey Act. The Act was named in
honor of Kate Puzey, a Peace Corps Volunteer who died while serving in Benin in 2009. This
Act established requirements for the agency to provide comprehensive sexual assault risk-
reduction and response training to Volunteers; develop a sexual assault policy; establish an OVA
and a SAAC; and undertake other related efforts to enhance Volunteer safety and security and
the Peace Corps’ response to victims of sexual assault.

Section 8B of the Kate Puzey Act lists a set of requirements that the Peace Corps’
comprehensive sexual assault policy must include. It also requires the agency to develop the
policy in consultation with experts and train all overseas staff on the policy. The following are
specific requirements of the Kate Puzey Act:
         Sec. 8B. (a) In General.--The President shall develop and implement a comprehensive sexual assault
         policy that--
              (1) includes a system for restricted and unrestricted reporting of sexual assault;
              (2) mandates, for each Peace Corps country program, the designation of a Sexual Assault Response
                  Liaison (SARL), who shall receive comprehensive training on procedures to respond to reports
                  of sexual assault, with duties including ensuring that volunteers who are victims of sexual
                  assault are moved to a safe environment and accompanying victims through the in-country
                  response at the request of the victim;
              (3) requires SARLs to immediately contact a Victim Advocate upon receiving a report of sexual
                  assault in accordance with the restricted and unrestricted reporting guidelines promulgated by
                  the Peace Corps;
              (4) to the extent practicable, conforms to best practices in the sexual assault field;
              (5) is applicable to all posts at which volunteers serve; and
              (6) includes a guarantee that volunteers will not suffer loss of living allowances for reporting a
                  sexual assault.

         (b) Development and Consultation With Experts.--In developing the sexual assault policy under
         subsection (a), the President shall consult with and incorporate, as appropriate, the recommendations and
         views of experts in the sexual assault field, including experts with international experience.

         (c) Elements.--The sexual assault policy developed under subsection (a) shall include, at a minimum, the
         following services with respect to a volunteer who has been a victim of sexual assault:
              (1) The option of pursuing either restricted or unrestricted reporting of an assault.
              (2) Provision of a SARL and Victim's Advocate to the volunteer.




Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                                             1
              (3) At a volunteer's discretion, provision of a sexual assault forensic exam in accordance with
                  applicable host country law.
              (4) If necessary, the provision of emergency health care, including a mechanism for such volunteer
                  to evaluate such provider.
              (5) If necessary, the provision of counseling and psychiatric medication.
              (6) Completion of a safety and treatment plan with the volunteer, if necessary.
              (7) Evacuation of such volunteer for medical treatment, accompanied by a Peace Corps staffer at the
                  request of such volunteer. When evacuated to the United States, such volunteer shall be
                  provided, to the extent practicable, a choice of medical providers including a mechanism for
                  such volunteers to evaluate the provider.
              (8) An explanation to the volunteer of available law enforcement and prosecutorial options, and
                  legal representation.

         (d) Training.--The President shall train all staff outside the United States regarding the sexual assault
         policy developed under subsection (a).

The Peace Corps’ Operating Environment
Peace Corps Volunteers live and work in a broad range of unique and challenging environments
around the world. While Volunteer service has long been considered a fulfilling, life-defining
opportunity, there are inherent health and safety risks including the risk of sexual assault or other
serious crime incidents. The safety and security of Volunteers has been highlighted by the
agency as a “paramount objective of the Peace Corps” and a primary responsibility for its
managers, staff, Volunteers, and trainees.

The Peace Corps emphasizes community acceptance as the key to maintaining Volunteer safety
and security. It has found that safety is best ensured when Volunteers are well-integrated into
host communities as extended family members and seen as contributors to their communities'
development. Volunteers play an important role in ensuring their own safety: they are expected
to comply with post safety and security policies and exercise good judgment.

According to agency policy, the Office of Safety and Security (SS) directs and oversees all safety
and security programs for the agency (with the exception of information technology security).
The Peace Corps Manual section (MS) 270, “Volunteer/Trainee Safety and Security,” specifies
the offices that have primary responsibility for the agency’s safety and security program. The
Peace Corps manages its Volunteer safety and security programs through two offices, SS and the
Office of Global Operations (OGO). SS directs, oversees, and supports Volunteer safety and
security programs. OGO manages and supervises Volunteers and trainees through three regional
directors and the country directors (CDs) assigned to Peace Corps posts and has responsibility
for ensuring implementation of the agency’s safety and security programs at posts.

At the post level, the CD has overall responsibility for the day-to-day management and execution
of Volunteer safety and security programs. This effort is coordinated with support from staff at
the post, regional, and headquarters levels, including medical, safety and security, legal, and
administrative staff. When crimes are committed against Volunteers overseas, investigative and
prosecutorial jurisdiction frequently lies with that country's police and judicial system.
Prosecution in the U.S. is available only for crimes over which the United States has




Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                                                 2
extraterritorial jurisdiction.4 Even for those crimes, local prosecution may be preferred because
of evidentiary and legal considerations. Therefore, in order to develop a comprehensive
Volunteer safety and security program and provide support to crime victims, each post must be
familiar with local laws and with local customs and culture.

Volunteers receive medical care from Peace Corps medical officers (PCMOs). There is at least
one PCMO at each country’s post. PCMOs may be nurses, nurse practitioners, physician
assistants, or physicians. These staff may be host country nationals, third country nationals , or
Americans. The Peace Corps carefully evaluates and accredits each PCMO through the Peace
Corps’ Office of Health Services (OHS) Quality Improvement Unit at headquarters. The PCMO
is available twenty-four hours a day, seven days a week to provide medical care for emergencies
involving Volunteers.

The Peace Corps Manual contains the authoritative policies governing the operations of the
agency and the responsibilities and conduct of Volunteers and employees. In addition, Interim
Policy Statements (IPSs), Medical Technical Guidelines (TGs), directives, standard operating
procedures (SOPs) and various other attachments provide more detail on how to implement the
policies and must be consistent with the policies in the Peace Corps Manual.

OIG Reporting Requirements in the Kate Puzey Act
To fulfill oversight requirements, OIG must report to Congress by November 21, 2013 on the
status of the Kate Puzey Act implementation.5 OIG is providing the following in three reports:

    1. An evaluation of the effectiveness and implementation of the sexual assault risk-
       reduction and response training.
    2. An evaluation of the effectiveness and implementation of the sexual assault policy,
       including a case review of a statistically significant number of cases.
    3. A report describing how Peace Corps representatives are hired, terminated, and how
       Peace Corps representatives hire staff, including an assessment of the implementation of
       performance plans.

This report fulfills the requirement to evaluate the agency’s sexual assault policy and conduct a
review of sexual assault cases.

Evaluation Limitations
Key aspects of the requirements mandated by the Kate Puzey Act have yet to be implemented
and are not scheduled to go into effect until September 1, 2013. Because some of the policies are
being implemented too late for OIG to review them and still meet Congress’ November 2013
deadline, our scope of review has significant limitations. We were asked to determine whether
the Peace Corps developed and implemented a sexual assault policy that complies with section
8B of the Kate Puzey Act. Although we found that agency policies, including draft policies

4
  Such crimes include but are not limited to those occurring within the special maritime and territorial jurisdiction of
the United States pursuant to 18 U.S.C. §7, or where a federal criminal statute expressly provides for U.S.
extraterritorial jurisdiction.
5
  OIG must provide reports to the Committees on Foreign Relations and Appropriations of the Senate and the
Committees on Foreign Affairs and the Appropriations of the House of Representatives.


Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                                                   3
generally comply with section 8B, because many policies are not final and have not been
implemented, we were unable to verify final content of some policies, or to evaluate whether the
new and modified policies have had the intended effects. Consequently, we are not able to
comment on the effectiveness of the policies. Even for those policy changes that were
implemented during the course of the evaluation, enough time has not elapsed to evaluate the
effectiveness of the policies.

Evaluation Objectives
This evaluation report answers the following questions:

          Has Peace Corps developed and implemented a sexual assault policy that complies
           with section 8B of the Kate Puzey Act?
          Has all overseas staff received training on the Peace Corps’ sexual assault policy?
          Are victims of sexual assault receiving the services mandated by section 8B of the
           Kate Puzey Act?




Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                             4
  SECTION A: POLICY DEVELOPMENT AND IMPLEMENTATION
In this section of the evaluation report, OIG addresses the question: “Has Peace Corps developed
and implemented a sexual assault policy that complies with section 8B of the Kate Puzey Act?”
During our review we collected the various policies, guidelines, and instructions that fulfill the
requirements of the Act and analyzed them to determine whether all the required elements were
included. We also verified that experts were involved in policy development and revisions and
whether applicable best practices were incorporated.

                                                 One centralized sexual assault policy does not yet
                                                 exist, although senior staff reported that they intend
  The agency has a collection of policies        to identify and communicate to staff which
  and procedures that address different          documents make up the agency’s comprehensive
                                                 sexual assault policy. Instead of having a centralized
   requirements of the Kate Puzey Act.           policy, the agency has a collection of policies and
                                                 procedures that address the different requirements of
                                                 the Kate Puzey Act. We reviewed more than 40
different documents, and multiple versions of some that were undergoing revision, as part of this
evaluation. These policies and procedures include the Peace Corps Manual, IPSs, TGs,
Procedures for Responding to Sexual Assault, and various other attachments and procedures that
provide more detail on how to implement the policies. While the agency is working towards
developing a comprehensive policy, having the requirements and instructions in so many places
will make it difficult for staff to find the information and poses a risk that something will be
overlooked.

Elements of the Peace Corps’ program to respond to
sexual assault existed before the Kate Puzey Act was
passed, but full compliance with the law remains a             Having instructions in many
work in progress. In order for the agency to comply               places poses a risk that
with the Act, some required aspects of sexual assault         something will be overlooked.
response and support, such as the concepts of victim
advocacy and restricted reporting, required a major
overhaul to the systems and culture of the Peace Corps.
Other required aspects of sexual assault response and support, such as emergency healthcare,
counseling, and forensic exams, have long existed in the agency, but were modified to
incorporate best practices. Some of the agency’s existing sexual assault response policies
required minor changes and some required no changes at all. The following graphic illustrates
the implementation timing for the various policy requirements of the Kate Puzey Act.




Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                                  5
                 Figure 1. Progress Implementing the Kate Puzey Act Requirements




Some significant new elements of the Peace Corps’ sexual assault policy, such as restricted
reporting and SARLs, among others, are scheduled to go into effect on September 1, 2013. The
implementation dates for some of the new sexual assault policies limited the extent to which we
could evaluate the implementation and effectiveness of the agency’s sexual assault policy by the
Congressional deadline of November 2013. We were unable to verify the final content of some
policies or verify that victims received certain services because the policies outlining the
provision of services had not yet been fully finalized or implemented. We were also unable to
evaluate whether the new and modified policies are having the intended effects because there has
not been a sufficient amount of elapsed time to determine effectiveness.

The Kate Puzey Act mandated that an independent panel of subject matter experts review the
Peace Corps’ sexual assault policy for use of best practices. The SAAC was consequently
established. In November 2012, the council included 10 individuals with expertise in sexual
assault risk-reduction and response, medical treatment protocols, training and education, and
sexual assault prevention. The council reviewed the Peace Corps’ policies and TGs in the
summer of 2012 and published its first report in November 2012. Some of its findings are
referenced throughout this report.6 Additionally Peace Corps staff who are sexual assault and/or
medical experts were consulted. Current and former agency staff and Volunteers provided their
perspective on Peace Corps’ unique international environment.



6
    The SAAC is required to publish its second report by November 2013.


Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                               6
We found that best practices were incorporated into the policy revisions to the extent that
applicable best practices were available and that experts were consulted in some circumstances.
Because Peace Corps operates differently from other domestic organizations or federal entities
with overseas operations, it was difficult to identify best practices for many of the requirements.
In some situations, best practices and/or consultation with experts was unnecessary due to the
nature of the item.

POLICY REQUIREMENT 1: RESTRICTED AND UNRESTRICTED REPORTING
The Kate Puzey Act states that “The President shall develop and implement a comprehensive
sexual assault policy that includes a system for restricted and unrestricted reporting of sexual
assault.” As defined by the Kate Puzey Act, restricted reporting prevents the disclosure of
personally identifiable information (PII) and enables a Volunteer to report a sexual assault
without automatically starting an investigation. The Kate Puzey Act also outlines the
circumstances under which PII can be disclosed and instructs the agency to notify Volunteers if
their PII is disclosed. The Kate Puzey Act gives the following description of restricted reporting:

         The term ‘restricted reporting’ means a system of reporting that allows a volunteer who is sexually
         assaulted to confidentially disclose the details of his or her assault to specified individuals and
         receive the services outlined in section 8B(c) without the dissemination of his or her personally
         identifying information except as necessary for the provision of such services, and without
         automatically triggering an official investigative process.

         Exceptions.--In cases in which volunteers elect restricted reporting, disclosure of their personally
         identifying information is authorized to the following persons or organizations when disclosure
         would be for the following reasons: i) Peace Corps staff or law enforcement when authorized by
         the victim in writing. ii) Peace Corps staff or law enforcement to prevent or lessen a serious or
         imminent threat to the health or safety of the victim or another person. iii) SARLs, victim
         advocates or healthcare providers when required for the provision of victim services. iv) State and
         Federal courts when ordered, or if disclosure is required by Federal or State statute.

         Notice of disclosure and privacy protection.--In cases in which information is disclosed pursuant
         to subparagraph (B), the President shall--(i) make reasonable attempts to provide notice to the
         volunteer with respect to whom such information is being released; and (ii) take such action as is
         necessary to protect the privacy and safety of the volunteer (§ 8A(f)(2)).

Analysis
After passage of the Kate Puzey Act, the agency worked to develop a restricted reporting policy
and related procedures. IPS 3-13 “Responding to Sexual Assault” defines the sexual assault
                                       reporting system that will be available to Volunteers once
                                       the IPS is issued. Further details about the restricted and
  The agency’s restricted reporting standard reporting processes are contained in a related
                                       procedure document entitled Procedures for Responding
  policy is scheduled to be issued on to Sexual Assault, which is currently in draft form.7 IPS
          September 1, 2013.           3-13 was signed by the acting Director in March 2013 but



7
  The agency is referring to “unrestricted” reporting as “standard” reporting, which is how it will be referred to
throughout the report.


Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                                                 7
will not become effective until it is issued.8 The agency has targeted September 1, 2013 as the
issue date for IPS 3-13 and the related procedure document.

The definition of restricted reporting included in the
March 2013 version of IPS 3-13 generally conforms to the                      The agency’s definition of
one provided by the Kate Puzey Act.9 The policy states
that a Volunteer who elects restricted reporting will                      restricted reporting generally
receive the services outlined by the Kate Puzey Act                       conforms to the one provided by
without automatically triggering an official investigation.                       the Kate Puzey Act.
The Volunteers’ PII included in the report is restricted to
designated staff and other staff providing authorized
restricted report services to the Volunteer.

Experts and Best Practices
The Peace Corps consulted experts, including staff at the Department of Defense (DOD) as well
as numerous Peace Corps staff and Volunteers, when developing its restricted reporting process.
DOD is the only U.S. government agency that also has a system of restricted reporting for
sexual assaults, and a member of DOD’s Sexual Assault Prevention and Response Office was
consulted when the Peace Corps was drafting IPS 3-13. This expert had the opportunity to advise
the Peace Corps on the policy’s background at DOD, share lessons learned, and provide
comments on the Peace Corps’ policy and procedures. The agency also sought feedback from
current and former Peace Corps staff and Volunteers, thus providing input from people with
international experience. The SAAC reviewed IPS 3-13 and the related procedures in July 2013
and found that it conformed to best practices.

However, restricted reporting is a relatively new concept that has primarily been used by DOD.
Therefore it is difficult to consider it a best practice and compare the Peace Corps’ approach to
the one used by DOD. Even though some people stated that DOD’s restricted reporting policy
has encouraged people to report sexual assaults, DOD’s own policy and response to sexual
assault continues to be improved.

The SAAC and Peace Corps staff interviewed also noted that there are significant differences
between Peace Corps and DOD that must be considered
when applying restricted reporting to the Peace Corps. In
the Peace Corps, unlike in DOD, perpetrators of sexual
                                                              Giving Volunteers a reporting
assault are often people outside of the agency, so it cannot
rely on its own legal system or administrative procedures option incorporates best practices
to punish offenders. Furthermore, the Peace Corps might      and should encourage reporting.
have to rely on resources outside the agency to ensure
Volunteers receive all the services they are entitled to

8
  Although the agency finalized a version of IPS 3-13 that was signed by the acting Director, it did not issue it. The
agency has and may continue to make modifications until it is issued.
9
  We have serious concerns that the agency’s policies and procedures related to restricted reporting, particularly our
access to information, will hinder our ability to perform our mission and meet our statutory mandate. These concerns
have been communicated to the acting Director of the Peace Corps and relevant congressional committees outside
the framework of this report.


Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                                                8
under the Kate Puzey Act, such as medical care and forensic exams.

Even though it is difficult to identify best practices related to restricted reporting, one of the
experts we interviewed stated that it is important to give sexual assault victims some control over
their situation by allowing them to make choices about actions that affect them. By giving
Volunteers a reporting option, the policy incorporates this best practice and should encourage
Volunteers to report sexual assaults.

One key difference between Peace Corps and DOD policies for reporting sexual assaults is that
Peace Corps Volunteers can report a sexual assault to any staff, not just designated staff, and the
report must remain restricted until the Volunteer acts to convert it to a standard report. Peace
Corps policy presumes that all reports are restricted until a Volunteer elects to convert the report
to a standard report. It is unclear how many Volunteers will choose to convert the report to a
standard report.

POLICY REQUIREMENT 2: SEXUAL ASSAULT RESPONSE LIAISONS
The Kate Puzey Act requires the Peace Corps to create a sexual assault policy that includes
SARLs and victim advocates. Specifically, the Kate Puzey Act mandates the following:

        …for each Peace Corps country program, the designation of a Sexual Assault Response Liaison
        (SARL) who shall receive comprehensive training on procedures to respond to reports of sexual
        assault, with duties including ensuring that volunteers who are victims of sexual assault are moved
        to a safe environment and accompanying victims through the in-country response at the request of
        the victim (§ 8B (a)(2)).

The Kate Puzey Act further “requires SARLs to immediately contact a Victim Advocate upon
receiving a report of sexual assault in accordance with the restricted and unrestricted reporting
guidelines promulgated by the Peace Corps.” It also states that the agency’s sexual assault policy
must provide a SARL and a victim’s advocate to a Volunteer who has been the victim of a sexual
assault.

Analysis
Since the passage of the Kate Puzey Act, the agency has developed and implemented a Victim
Advocate program that meets the Act’s requirements. On February 22, 2012, Aaron S. Williams,
then Director, announced the establishment of OVA to provide victim advocate services to all
Volunteers who are the victim of a sexual assault, stalking, or other crimes.10 On March 20,
2012, the Peace Corps revised MS 123 “Office of the Director: Organization, Mission, and
Function” to include an OVA. Various documents, including TG 540 “Clinical Management of
Sexual Assault” and the draft Procedures for Responding to Sexual Assault, describe when and
how the victim advocate should be notified and provide services to victims in the case of a
sexual assault. According to TG 540, the victim advocate is to be notified in every reported case
of sexual assault.



10
  According to information on the Peace Corps Intranet, OVA will give priority to cases involving serious crimes,
including sexual assault and stalking.


Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                                                9
                    SARLs are currently being selected and trained, and the
                  policy is scheduled to become effective September 1, 2013.



The agency has also developed a SARL policy, IPS 2-13 “Sexual Assault Response Liaisons,”
although it is not yet effective. IPS 2-13 requires all Peace Corps posts designate two SARLs and
outlines the responsibilities for SARLs, which include all the required elements of the Act. The
SARLs’ duties are also reinforced in the draft Procedures for Responding to a Sexual Assault.
The Peace Corps has selected two SARLs for every post and upon selection, they received
training on these policies and procedures from June to August 2013. They are supposed to begin
their duties on September 1, 2013.

Experts and Best Practices
The agency was able to rely on the expertise of the director of OVA, a nationally recognized
victim’s rights activist, when developing IPS 2-13. The SAAC reviewed IPS 2-13 and related
SARL procedures in July 2013 and did not raise any significant concerns with the overarching
policy.

It was difficult to identify best practices for SARLs because we could not find examples of this
role being used outside of Peace Corps. DOD has Sexual Assault Response Coordinators
(SARCs) who fill a similar role. However, the SARL program was still being developed during
our evaluation fieldwork so we could not provide a comparison to the military’s SARC role.

Although there are not clear best practices for SARLs, the agency tried to build victim-centered
best practices into the response protocols that SARLs
and victim advocates, among others, will carry out. This
includes considering a victim’s point of view and giving The SARL position is unique to the
the Volunteer choices in their care and recovery.             Peace Corps, although the US
Experts highlighted the need to be transparent, provide    military has an equivalent position.
information, be honest with Volunteers, and be clear
about the process so that Volunteers know what to
expect.

Potential Implementation Challenges
Although the agency prefers to fill the SARL positions with full-time Peace Corps staff who
have volunteered for the position, IPS 2-13 includes a provision that would allow the agency to
fill SARL positions with individuals such as family members of U.S. embassy personnel or U.S.
citizens who reside in the host country. Although initially all SARLs will be full-time staff, we
are concerned that selecting non-Peace Corps staff in the future could create challenges with
training and accountability. Non-Peace Corps SARLs might not be sufficiently knowledgeable of
post and headquarters operations and functions, which could affect the quality or timeliness of
support to Volunteers. Furthermore, non-Peace Corps SARLs might not be as adept at handling



Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                           10
the logistical challenges that result from Peace Corps’ unique operating environment and remote
Volunteer sites, which could compromise the agency’s response efforts.

POLICY REQUIREMENT 3: APPLICABLE TO ALL POSTS
The Kate Puzey Act states that the agency’s sexual assault policy must be “applicable to all posts
at which volunteers serve.”

Analysis
The agency has fulfilled this requirement of the Kate Puzey Act. None of Peace Corps’ posts are
exempted from the various policies and guidelines that compose the agency’s sexual assault
policy.

Experts and Best Practices
Because this is a specific requirement that does not have associated “practice,” no confirmation
of expert involvement in policy development or best practice comparison was conducted.

POLICY REQUIREMENT 4: LOSS OF LIVING ALLOWANCE
The Kate Puzey Act stipulates that the comprehensive sexual assault policy includes a guarantee
that Volunteers will not suffer loss of living allowances for reporting a sexual assault.

Analysis
The IPS 1-11 “Immunity Policy” prohibits victims or witnesses of a sexual assault from being
subject to disciplinary action for violations of policy in connection with an assault. By
prohibiting disciplinary action of any kind against victims of sexual assault in connection to the
assault, IPS 1-11 also guarantees that victims will not suffer loss of living allowances for
reporting a sexual assault. Furthermore, MS 221 “Volunteer Allowances” and MS 223
“Volunteer/Trainee Readjustment Allowance” were revised in May 2013 to state that Volunteers
will not lose their living allowance for reporting a crime.

Experts and Best Practices
Experts we interviewed and members of the SAAC did not raise concerns about this policy.
Because this is a specific requirement that does not have associated practice, no confirmation of
expert involvement in policy development or best practice comparison was conducted.

POLICY REQUIREMENT 5: FORENSIC EXAMS
The Kate Puzey Act requires that Peace Corps provide Volunteers who are victims of sexual
assault with a forensic exam.

Analysis
The agency’s policies on forensic exams are currently being revised to incorporate restricted
reporting and to reflect changes in how the agency will provide sexual assault forensic
examinations (SAFEs) to Volunteers after a sexual assault. The revised SAFE policy is outlined
in three documents: IPS 3-13 “Responding to Sexual Assault,” TG 540 “Clinical Management of


Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                            11
Sexual Assault,” and Procedures for Responding to Sexual Assault. The new policies are
expected to be implemented on September 1, 2013.

The Peace Corps’ revised policies state that forensic exams will be provided to all Volunteers in
accordance with host country law; however, it is unclear how a Volunteer will receive an exam
in some cases when a restricted report is filed. Even though the March 2013 version of IPS 3-13
states that a forensic exam will be provided to all victims of sexual assault, other guidance raises
questions about whether this will happen in all
cases. Under the new policy, SAFE will be
provided in most cases by a local service provider,
                                                          The Volunteer’s reporting preference
not the PCMO.11 TG 540 and Procedures for
Responding to Sexual Assault give staff guidance           impacts whether the Volunteer can
on how to provide a SAFE in some, but not all,                   receive a forensic exam.
cases. The Volunteer’s reporting preference,
restricted versus standard, impacts whether the
Volunteer can receive a SAFE.

In cases where the Volunteer has elected standard reporting, the guidance clearly states that the
Volunteer will be able to receive a SAFE if desired. Both TG 540 and Procedures for
Responding to a Sexual Assault include specific protocols that PCMOs should follow in response
to a sexual assault, requiring them to describe the purpose of a forensic exam, how forensic
exams are provided in the country of service, and accompany the Volunteer to the exam if
allowed by host country law.

The Volunteer’s ability to obtain a SAFE is less clear if a restricted report has been filed. In
some Peace Corps countries, obtaining a SAFE would trigger an official local investigation,
making restricted reporting impossible. Peace Corps policy explains that in those cases a
Volunteer would have to convert to a standard report in order to receive a SAFE. However, there
may be Peace Corps countries in which a SAFE would not trigger an official investigation. In
those cases, the policy does not give guidance on how a SAFE should be conducted under
restricted reporting.

The Peace Corps has determined that PCMOs should conduct a SAFE only in very limited
circumstances. If a case meets the agency’s requirements, the policy clearly states that a
Volunteer can receive a SAFE from the PCMO under both standard and restricted reporting.

Experts and Best Practices
Two external experts, also members of the SAAC, were the chief consultants for this revision of
TG 540 and provided input on medical forms, PCMO duties, treatment plans, and who would be
involved in the process. The Peace Corps also identified resources from reputable organizations
in the sexual assault field and consulted with external and internal experts when revising TG 540.
TG 540 cites a list of articles, experts, and organizations used to design the policy. These include
resources on treatments for sexually transmitted illnesses (STI) and post traumatic stress disorder
(PTSD), as well as forensic exams and clinical management of sexual assaults, among others.
The sources come from organizations with established expertise in the field, including the World
11
     Previously, a PCMO would conduct the exam unless prohibited under host country law.


Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                              12
Health Organization, Centers for Disease Control and Prevention (CDC), St. Luke’s Hospital of
Kansas City, and Sexual Assault Nurse Examiner Program in Washington, DC.

Potential Implementation Challenges
The implementation of restricted reporting creates a new process for providing SAFEs to
Volunteers that may make it more difficult for them to receive a SAFE. Previous policy required
the PCMO to conduct the forensic exam whenever possible. Under the Peace Corps’ new
policies, staff will be responsible for identifying and contracting local providers to conduct
SAFEs as well as ensuring that SAFEs are provided in accordance with restricted reporting
confidentiality requirements. Additionally, it is possible there are other unknown risks of
defaulting to SAFEs conducted by local providers that have not yet been identified. Without
clear guidance from the Peace Corps on how to provide a SAFE in all cases, we are concerned it
may become more challenging for Volunteers to receive a SAFE.


               We recommend:

                   1. That the agency clarify the procedures for obtaining a
                      sexual assault forensic exam for a Volunteer who has
                      filed a restricted report if the forensic exam does not
                      trigger an official investigation, and revise policies
                      accordingly.


POLICY REQUIREMENT 6: EMERGENCY HEALTHCARE
The Kate Puzey Act requires the agency to provide emergency healthcare, if necessary, to a
Volunteer who has been a victim of sexual assault. It also requires the agency to provide a
mechanism for a Volunteer to evaluate the emergency healthcare provider.

Analysis
Peace Corps policy guarantees the provision of
emergency healthcare to victims of sexual assault, and Peace Corps’ policy guarantees the
multiple guidelines and instructions describe specific
medical services to be provided as well as various     provision of emergency healthcare
mechanisms to evaluate those providers. We reviewed       to victims of sexual assault.
13 TGs and procedures related to providing emergency
healthcare and evaluating the healthcare providers.

The clearest guarantee of emergency medical care is outlined in TG 120 “Medical Benefits”
which states “the essential elements of medical care for Trainees and Volunteers include…
emergency medical services anywhere in the world at any time.” In addition, the Peace Corps
TGs describe specific medical services to be provided to a Volunteer in the case of a sexual
assault. These services include emergency medical care, forensic exams, STI testing, post
exposure prophylaxis PEP, and clinical examinations. Peace Corps policy also clearly outlines
who is responsible for providing these services.


Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                            13
The agency has established several methods to gather feedback from Volunteers about their
medical care, which include reporting directly to Peace Corps staff, filing a concern with the
agency’s Quality Improvement Unit, and/or completing the Peace Corps’ healthcare consultant
online satisfaction survey. These various reporting mechanisms give Volunteers the opportunity
to provide feedback about non-Peace Corps healthcare providers and healthcare received from
Peace Corps staff.

Experts and Best Practices
Experts we interviewed and members of the SAAC did not raise significant concerns with the
Peace Corps’ provision of emergency healthcare to Volunteers. The Peace Corps’ policy is
similar to hospital or clinic protocols for managing patients’ clinical needs and escalating care as
appropriate. When developing the TG on STI and human immunodeficiency virus (HIV)
prevention, Peace Corps staff referred to at least three external sources, including guidance from
the CDC.

It is evident that the agency researched how other organizations, including other federal
agencies, have conducted surveys similar to the healthcare consultant online satisfaction survey,
and incorporated some best practices. The agency expert who built the Peace Corps’ survey
reviewed monitoring and evaluation programs from other sexual assault response programs and
incorporated best practices when possible.

POLICY REQUIREMENT 7: PROVISION OF COUNSELING AND PSYCHIATRIC
MEDICATION
The Kate Puzey Act requires the agency to provide counseling and psychiatric medication, if
necessary, to a Volunteer who has been a victim of sexual assault.

Analysis
There are several agency guidelines and policies that comply with the Kate Puzey Act and
address the counseling options that should be provided to victims of sexual assault. One of the
most significant is TG 545 “Sexual Assault: Mental Health Assessment and Care.” This TG
provides PCMOs with guidance on how to
support Volunteers’ emotional needs after a
sexual assault. It instructs the PCMO to               Peace Corps’ policies and guidelines
encourage the Volunteer to speak with a licensed      guarantee counseling and psychiatric
mental health provider and states that the PCMO
                                                     medication to victims of sexual assault.
should offer counseling through a variety of
methods, including a mental health provider in
country; phone sessions with the Counseling and
Outreach Unit (COU); or a medical evacuation to Washington, DC or the Volunteer’s home of
record. It also provides guidance on the provision of psychiatric medications. Provision of
psychotropic medications must be done in consultation with OHS, but they are available to
Volunteers when needed.




Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                              14
The agency has several other TGs and policies that reinforce staff’s duty to provide Volunteers
with mental health support when needed, including TG 540 “A Resource Guide for the Clinical
Management of Sexual Violence,” TG 510 “Mental Health Assessment and Support,” and MS
270 “Volunteer/Trainee Safety and Security.” The Peace Corps' various policies and TGs include
the provision of counseling and psychiatric medication, when needed, to victims of sexual
assault.

Experts and Best Practices
The agency made revisions to its TGs based on input from members of the SAAC who have a
medical background and are experts in the sexual assault field. Since the passage of the Kate
Puzey Act, the agency also hired experts in PTSD/acute stress disorder and made further
revisions based on their input.


      The Peace Corps has updated its approach to providing counseling and psychiatric
                    medication based on best practices and input from experts.


The agency incorporated best practices into its sexual assault counseling TGs based on the input
from experts and research provided by the U.S. Department of Health and Human Services’
Agency for Healthcare Research & Quality.12 The Peace Corps has selected two evidence-based
techniques staff will use when treating sexual assault victims and other trauma survivors. These
therapies have been shown to be effective and are recommended responses for trauma survivors.

POLICY REQUIREMENT 8: SAFETY PLAN
The Kate Puzey Act requires staff to work with a Volunteer who has been the victim of a sexual
assault to complete a safety plan, if necessary.

Analysis
We found two policy and procedure documents that
instructed staff to complete a safety plan following a                Agency guidance directs staff to
sexual assault, but the documents did not provide                    develop a safety plan but does not
information on the safety plan’s format, contents, or
when a plan is necessary. Furthermore, neither of the                provide information on its format,
documents has been issued so the guidance will not                  contents, or when one is necessary.
be in effect until the target implementation date of
September 1, 2013.

The March 2013 version of IPS 3-13 lists the completion of a “Victim Safety Plan” as one of the
services a Volunteer will receive in the case of a sexual assault. It further defines the Victim
Safety Plan as “a plan developed by Designated Staff and a Volunteer to address the immediate
and ongoing personal safety and emotional needs of the Volunteer following a sexual assault


12
  The Agency for Healthcare Research and Quality's mission is to improve the quality, safety, efficiency, and
effectiveness of health care for all Americans.


Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                                            15
including, when necessary, housing changes.” No other information related to safety plans is
provided in IPS 3-13.

Safety plans are mentioned numerous times throughout the draft Procedures for Responding to
Sexual Assault but the document is missing important information about when a safety plan is
needed, the essential elements of such plan, or how the plan should be documented and
distributed.

We reviewed a sample “Volunteer Safety and Support Plan” from OVA to demonstrate the
content of a safety plan. This document is intended to help Peace Corps staff guide the safety
planning conversation with the Volunteer and is intended to be tailored to the circumstances of
each individual case. Its framework is based on questions to guide open discussions about three
important topics: how to reduce risk, how to respond if something happens, and how to maintain
health and well-being. The document emphasizes that the plan needs to be jointly developed
between the Volunteer and staff. It also states that it is “NOT a behavioral contract,” and the
Volunteer should never be asked to sign it. The document instructs the facilitator to take detailed
notes and to write up a summary for his or her files. Although this provides some of the needed
guidance to staff, it has not been rolled out globally or incorporated into policy or procedure
documents.

Experts and Best Practices
Because Peace Corps policy did not include consistent guidance for a safety plan’s format,
contents, or when one is necessary, we were not able to verify that best practices were
incorporated into the Peace Corps’ policies. In November 2012, the SAAC reported that the
safety planning documents they reviewed adhere to best practices in safety planning and that the
key to successful implementation is to tailor the plan to the individual Volunteer’s
circumstances.13

Experts and members of the SAAC who were interviewed for this evaluation reinforced the
SAAC’s previous report finding that the documents they reviewed adhered to best practices.
However, they also indicated that the agency should include safety planning guidance in its
policies.

Potential Implementation Challenges
Agency guidance directs staff to develop a safety plan but does not provide information on its
format, contents, or when one is necessary. We acknowledge the agency’s concern about victim
blaming as well as the need to approach each case individually. But, without clear guidance for
staff on how and when to complete a safety plan, compliance with this element of the Kate Puzey
Act is not guaranteed.




13
 Three documents “Response to Threatening Situations;” the “Safety Plan Worksheet;” and “Post Incident
Assessment” were referred to as “outlining the steps in safety planning that must be taken at the post following a
Volunteer sexual assault.”


Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                                                 16
               We recommend:

                    2. That the associate director for Safety and Security
                       revise agency policy to provide clear guidance on when
                       a safety plan is needed, the essential elements of such a
                       plan, and how the plan should be documented and
                       distributed.


POLICY REQUIREMENT 9: TREATMENT PLAN
The Kate Puzey Act requires staff to work with a Volunteer who has been the victim of a sexual
assault to complete a treatment plan, if necessary.

Analysis
The agency has been revising its treatment plan
guidance in response to the Kate Puzey Act and
feedback from experts. A draft version of TG 540 “A
                                                                      The agency has been revising its
Resource Guide for the Clinical Management of Sexual
Violence” dated June 2013 instructs PCMOs to respond                treatment plan guidance in response
to a sexual assault by developing a treatment plan                  to the Kate Puzey Act and feedback
“according to the mental and medical health needs of
                                                                                  from experts.
the Volunteer.” This will be offered to Volunteers who
are the victim of a sexual assault regardless of whether
they file a restricted or standard report. The agency
plans to issue this revised TG on September 1, 2013.

The revised policy clarifies the guidance on providing a treatment plan. Prior to the revisions,
TG 540 instructed PCMOs to conduct short and long term treatment planning with the
Volunteer, but did not clearly define the provision of a treatment plan. Once this TG becomes
effective, the agency will satisfy this element of the Kate Puzey Act.

Experts and Best Practices
We confirmed that experts were involved in revising the treatment plan guidance. In November
2012, the SAAC reported that these forms adhered to best practices in treatment planning.
According to the SAAC, the forms allow the Volunteer and Peace Corps staff to work together to
develop the best and most appropriate course of action for each specific situation. That
flexibility, in the SAAC’s view, is a key to successful implementation.

POLICY REQUIREMENT 10: MEDICAL EVACUATION
The Kate Puzey Act requires the following related to the medical evacuations for Volunteers
who have been the victim of a sexual assault:

       Evacuation of such volunteer for medical treatment, accompanied by a Peace Corps staffer at the
       request of such volunteer. When evacuated to the United States, such volunteer shall be provided,



Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                                       17
       to the extent practicable, a choice of medical providers including a mechanism for such volunteers
       to evaluate the provider (§ 8B (c)(7)).

Analysis
The Peace Corps’ policies on medical evacuation, which existed before the passage of the Kate
Puzey Act, were modified to include all the elements required by the Act. MS 264 “Medical
Evacuation” requires that victims of a sexual assault be medically evacuated upon request and be
accompanied by staff unless accompaniment is declined by the victim. The policy states:

       In the case of a Volunteer who is the victim of a sexual assault, the Volunteer has the right to be evacuated
       for medical treatment from the country of assignment if requested by the Volunteer… In the case of a
       medevac resulting from a sexual assault, stalking or other serious crime, the Volunteer must be
       accompanied by a Peace Corps staff member, unless declined by the Volunteer.

The provision of medical evacuation and staff accompaniment is reinforced in the OHS SOP
document entitled Management of Sexually-Assaulted Volunteers or Victims of Crime on
Medevac as well as Procedures for Responding to Sexual Assault.

                                         IPS 3-13 “Responding to Sexual Assault” and
                                         Procedures for Responding to Sexual Assault include a
    Peace Corps’ policies on medical     choice of medical providers when medically evacuated
 evacuation were modified to include to the U.S. as a service available to victims of a sexual
                                         assault for both standard and restricted reports.
 all the elements required by the Act.
                                         Additionally, the Procedures for Responding to Sexual
                                         Assault instruct headquarters medical staff and the
                                         victim advocate to provide a Volunteer with medical
evacuation, clinical care, and mental health options. The service is emphasized in OHS’s SOP
for U.S. medical evacuations that instructs Peace Corps medical staff to give Volunteers a choice
of medical providers.

Finally, Volunteers are able to evaluate their medical evacuation providers through the same
mechanisms provided in the Policy Requirement 6: Emergency Healthcare section above.

Experts and Best Practices
Because the medical evacuation policy was developed long before the Kate Puzey Act was
passed we could not confirm that experts from outside the agency were involved in its
development. However, after the Act was passed, Peace Corps staff with medical expertise
reviewed the policy to ensure its quality. The external experts we interviewed raised no concerns
with it. The SAAC noted that the medical evacuation concept is unique to the Peace Corps and
were therefore unable to comment on best practices.

Potential Implementation Challenges
Guidance to staff to provide a choice of medical providers when a Volunteer is medically
evacuated to the United States is inconsistently communicated in Peace Corps’ procedural
documents. The Procedures for Responding to Sexual Assault instruct staff to provide
Volunteers with medical evacuation, clinical care, and mental health “options,” but do not
specify that those options include a choice of medical providers. They also do not reference



Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                                              18
OHS’s SOP for U.S. medical evacuations, where instruction to provide that choice is clear.
While there was no evidence that Volunteers were not receiving a choice of medical providers,
the agency should ensure that its guidance to staff is consistent across procedural documents to
avoid possible confusion.

               We recommend:

                   3. That the agency revise all relevant procedures to direct
                      staff to provide a choice of medical providers to victims
                      of sexual assault who are medically evacuated to the
                      United States.


POLICY REQUIREMENT 11: PROVIDE APPLICABLE LAW ENFORCEMENT AND
PROSECUTORIAL OPTIONS
The Kate Puzey Act requires that the Peace Corps’ sexual assault policy provide victims of
sexual assault with an explanation of legal and prosecutorial options, as well as legal
representation, if necessary.

Analysis
Since the passage of the Kate Puzey Act, the
Peace Corps has modified and developed a series
of policies and procedures in order to ensure that     The agency has been revising its policies
Volunteers receive all the required legal               and procedures in order to ensure that
information and services. The Procedures for
                                                       Volunteers receive all the required legal
Responding to Sexual Assault requires a PCMO
to provide an initial overview of law                           information and services.
enforcement and prosecutorial options to a
victim in response to a sexual assault and inform
the Volunteer that Peace Corps will hire a local lawyer to advise them on those options, if
desired. The post’s Safety and Security Coordinator (SSC), with support from an Office of
General Counsel (OGC) duty officer, is responsible for identifying and hiring a local lawyer for
that consultation. Additionally, Peace Corps MS 270, the Peace Corps’ primary policy dealing
with Volunteer safety, states that Volunteers should be provided with appropriate and timely
support to assist with legal needs. The Peace Corps’ policy also establishes a victim’s right to
legal counsel provided by the agency. MS 774, “Retention of Counsel and Payment of Related
Expenses Overseas,” requires the provision of legal counsel to Volunteers who are victims of
sexual assault. It states, “The Peace Corps is required to retain counsel for a Volunteer who is the
victim of a sexual assault if requested by the Volunteer.”

Experts and Best Practices
Best practices were not applicable to this requirement because legal systems and regulations vary
so widely between Peace Corps countries. Peace Corps staff and one expert we interviewed
noted that best practices are difficult to incorporate into this area of the agency’s sexual assault



Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                               19
policy because, unlike the military, the Peace Corps must use host country legal systems, which
are country-specific.

None of the experts interviewed raised concerns about this policy, though the SAAC felt strongly
that Volunteers should receive written information about the legal environment of their host
country before agreeing to serve as a Volunteer in that country. The Peace Corps concurred with
the SAAC’s recommendation.

CONCLUSION
Overall, the Peace Corps’ collection of policies and procedures contain the elements required by
the Kate Puzey Act, incorporate best practices to the extent practicable, and were reviewed by
experts. Some of the policies that meet the requirements of the Act were in place before the Act
was passed, and in other cases the Peace Corps revised its policy to ensure compliance.
Restricted reporting and SARLs, along with the related revision to other Peace Corps policies,
are scheduled to be implemented on September 1, 2013.

While we were able to confirm whether Peace Corps policy contained all the elements required
by the Kate Puzey Act, the collection of policies and procedures that address the requirements
are not organized and identified as a comprehensive sexual assault policy. No single person or
office is responsible for managing the agency’s development and revision of these policies to
ensure they contain the needed items and are being implemented as planned. Many offices across
the agency, such as OGC, SS, OHS, OGO, and OVA, were involved in developing the policies
that comprise the Peace Corps’ new sexual assault response. Several Peace Corps staff we
interviewed stated that this made progress difficult at times. This also made it difficult to
determine who is responsible for implementing or addressing the SAAC’s 24 policy-related
recommendations. We are concerned that the decentralized nature of the management of the
agency’s sexual assault policies will create challenges during implementation and when updating
the Peace Corps’ sexual assault policy.

The number and accessibility of documents that provide guidance to staff on Peace Corps’ sexual
assault policy could also create barriers to the consistent provision of services to Volunteers.
There is no guidance on what set of documents make up the Peace Corps’ official sexual assault
policy and where they can be found. Additionally, in some cases, the Kate Puzey Act required
services that were either not explicitly included in policy or not consistently communicated to
staff. In the case of a medical evacuation to the United States, guidance to staff to provide a
choice of medical providers is inconsistent between procedural documents. Without making
these documents easily identifiable and accessible to staff, it will be difficult to guarantee that
future victims of sexual assault will receive all the services required by the Kate Puzey Act.


               We recommend:

                   4. That the agency clarify what documents constitute its
                      official comprehensive sexual assault policy and make
                      those documents easily identifiable and accessible to
                      staff.


Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                            20
                   5. That the agency develop a process for the systematic
                      review of all sexual assault advisory council
                      recommendations, clearly outlining the offices
                      responsible for implementing each recommendation
                      with which the agency concurs.




Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy         21
                               SECTION B: STAFF TRAINING
In this section of the evaluation report, we address the question: “Has overseas staff received
training on Peace Corps' sexual assault policy?” During the evaluation we reviewed the agency’s
approach to providing sexual assault response training and assessed whether the agency had met
the mandate included in the Kate Puzey Act section 8B (d): “The President shall train all staff
outside the United States regarding the sexual assault policy developed under subsection (a).”

We determined that the Peace Corps has trained some but not all
overseas staff on the sexual assault policies. Agency management
stated that they could not meet this requirement until they had                     All overseas staff have
finalized the comprehensive sexual assault policy. The scheduled                   not been trained on the
launch date for several key policies is September 1, 2013. The                     agency’s sexual assault
agency advised us that it intends to train all overseas staff on the
relevant policies after that time.                                                          policies.

Even though the agency is waiting until its comprehensive sexual
assault policy is finalized before training all overseas staff, it has conducted training for staff in
select roles. The following table summarizes the key sexual assault-related trainings that have
been provided since 2011.

        Table 1. Key Sexual Assault-Related Staff Trainings Conducted Since 2011
           Training Name                     Training Date(s)                       Required Staff
      Guidelines for                March 29, 2011 and annually             Any staff who could be a first
      Responding to Rape and        thereafter                              responder to a sexual assault
      Major Sexual Assault
      Medical Overseas Staff        2012                                    PCMOs
      Trainings (MOST) and
      Continuing Medical
      Education (CME)
      Joint CME conferences         June-August 2013                        PCMOs, SSCs, SARLs
      Regional CD                   May-September 2013                      CDs
      conferences

Following is more detail about these trainings.

2011 Training: Guidelines for Responding to Rape and Major Sexual Assault
In March 2011, the associate director for global operations directed all CDs to conduct training
on the procedures that had been newly established in the Guidelines for Responding to Rape and
Major Sexual Assault.14 This document explained the procedures staff were required to follow
when responding to a rape or major sexual assault but did not represent a comprehensive sexual

14
  The Guidelines for Responding to Rape and Major Sexual Assault were released in February 2011 and detailed
the agency’s sexual assault response procedures for staff. These procedures will be replaced by the Procedures for
Responding to Sexual Assault on September 1, 2013.


Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                                             22
assault policy. This training was to be provided to any staff who could be a first responder to a
sexual assault.15 Specifically, the memorandum states, “Participants should include any staff who
could function as first responders (e.g., Duty Officers, Medical staff, AO [Administrative
Officer], APCD [Associate Peace Corps Director], Program Assistants, Training staff).”16 Posts
were instructed to complete this training by March 29, 2011 and deliver it annually thereafter.
While the memo sets expectations for training key staff on the Guidelines for Responding
to Rape and Major Sexual Assault, it does not address the Kate Puzey Act requirement stated
above because it did not cover the comprehensive sexual assault policy and was not required for
all overseas staff.

Even though this training was not intended to meet the Kate Puzey Act’s requirement to train all
overseas staff, we reviewed training records to determine how many staff had received it and
verify that it was being conducted annually. Although the training was only required for first
responders, CDs were given the latitude to extend the training to other staff if desired, making it
possible for all overseas staff to receive the training. Despite that possibility, our analysis
revealed that many overseas staff did not receive training on the Guidelines for Responding to
Rape and Major Sexual Assault. We received training records from 61 of 64 active posts.17 For
posts reporting, 59 percent of all overseas staff had received the training at least once since 2011,
although only 34 percent of them had received the training within the past year. We acknowledge
that it was not the agency’s intent to provide this training to all overseas staff, only select
positions. However, the results of our analysis may provide useful information the agency can
consider when implementing its comprehensive sexual assault training.


              Approximately 60 percent of overseas staff received training on the
          agency’s sexual assault response procedures prior to the upcoming roll-out
                        of the comprehensive sexual assault policy training.


Incomplete training records made this analysis difficult to perform, and we discovered that the
agency was not tracking whether the training was provided annually as required. The original
memorandum specified that the country desks should be notified when posts completed the 2011
training and that the training was to be repeated annually. However, the expectation to maintain
ongoing training records was not clear, and many country desks did not have the records needed
to determine whether the annual training requirement was met. Furthermore, we discovered that
only 54 percent of the posts conducted the training within the past year as required by the
agency. One post delayed training in subsequent years in anticipation of new policy changes.
Going forward, it will be important for the agency to have complete, accurate training records so
it can verify that it is meeting the staff training requirements in the Kate Puzey Act. In addition,
the agency will need to clarify how and when newly hired employees must receive this training.


15
   Individual posts determined which staff positions could be first responders to a sexual assault.
16
   Duty officers are staff who respond to emergency situations that occur after work hours.
17
   The data for three posts was never provided to OIG. These requests were made to the country desks, not directly
to the posts.


Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                                             23
2012 Training: Medical Overseas Staff Trainings and Continuing Medical Education
Even though the sexual assault policy was not final in 2012, the agency has been training
overseas medical staff on updated material as it becomes available. Two trainings that covered
this updated material were the 2012 MOST and CMEs.18 The 2012 MOST included over 10
hours of training relevant to the Kate Puzey Act requirements and covered topics such as: an
introduction to the Kate Puzey Act, interviewing a victim of sexual assault, sexual assault case
studies, the sexual assault clinical exam, forensic evidence collection and documentation, and
medical evacuation protocols. The 2012 CME included training on the following relevant topics:
the background of the Kate Puzey Act and its purpose, the role of the victim advocate, the sexual
assault hotline, intimate partner violence, and assessing site safety after an incident.

Plans for 2013 Training on the Comprehensive Sexual Assault Policy
As the Peace Corps gets closer to finalizing and issuing the remaining elements of its sexual
assault policy, it has started training staff on new policies as well as the updates that have been
made to existing policies and procedures. Trainings are taking place in different venues, and
some of the trainings are targeted to specific roles.

PCMOs, SSCs, and SARLs, the three positions that serve as “designated staff” in the agency’s
restricted reporting policy, were trained from June through August 2013 during three joint CME
conferences. During these week-long events, staff received in-depth training about the agency’s
sexual assault policies and their roles as first responders. Session topics included dynamics of
sexual assault, sexual assault policy updates, cross-cultural factors that influence Volunteer
support, team communication, understanding medical and legal processes, hiring an attorney,
and assessing risk after an incident. OIG observed the EMA region conference held in June 2013
and the IAP region conference held in July and August 2013.19 In general, these trainings were
informative and comprehensive. However, safety plans were not covered in detail and we are
concerned that staff did not receive the information necessary to comply with this element of the
Kate Puzey Act. Additionally, some of the policies and procedures were in draft form and
continued to be edited after initial trainings occurred.

Staff not classified as “designated staff” in the agency’s restricted reporting policy are also
receiving training, although most of this training will not be completed before the agency’s
scheduled September 1, 2013 issuance date for the sexual assault policies. Position-specific
training is being provided at the regional CD conferences being held May through September
2013. Post staff who serves as duty officers will receive training on the revised Procedures for
Responding to Sexual Assault. This is planned to occur before the scheduled launch of the new
policies on September 1, 2013. For all other staff, the agency plans to develop an online training
module covering the comprehensive sexual assault policy. The agency is planning to launch that
training in September 2013. Further information was not available.




18
   PCMOs receive accredited training through an initial three-week orientation conference called MOST and annual
weeklong CME conferences. During MOSTs and CMEs, PCMOs are trained on a range of applicable medical
protocols, including emergency medical care.
19
   An OIG representative was not available to attend the Africa region CME that took place in mid-August 2013.


Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                                          24
CONCLUSION
Because the agency has not finalized its comprehensive sexual assault policy, it has not been able
to meet the staff training requirement mandated by the Kate Puzey Act. However, since 2011, the
agency has provided training to select staff on other topics related to sexual assault response. In
an attempt to determine how many staff had received some of these trainings, we uncovered
weaknesses with the agency’s training records. Overcoming these weaknesses will be important
to ensure that the agency can verify it is meeting the mandates of the Kate Puzey Act.


               We recommend:

                   6. That the agency train all overseas staff on the sexual
                      assault policy per the Kate Puzey Act.

                   7. That the agency develop and communicate expectations
                      for training newly hired overseas staff, including
                      training methods and deadlines.

                   8. That the agency develop and implement a method to
                      track training records to verify that it is meeting the
                      requirements of the Kate Puzey Act.




Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                            25
                                 SECTION C: CASE REVIEW
Section 8B(c) of the Kate Puzey Act lists specific services that must be covered in the agency’s
sexual assault policy and provided to a Volunteer who has been a victim of a sexual assault.
Specifically, the Kate Puzey Act states:

        Sec 8B. (c) The sexual assault policy developed under subsection (a) shall include, at a minimum,
        the following services with respect to a volunteer who has been a victim of sexual assault:
             (1) The option of pursuing either restricted or unrestricted reporting of an assault.
             (2) Provision of a SARL and Victim's Advocate to the volunteer.
             (3) At a volunteer's discretion, provision of a sexual assault forensic exam in accordance with
             applicable host country law.
             (4) If necessary, the provision of emergency health care, including a mechanism for such
             volunteer to evaluate such provider.
             (5) If necessary, the provision of counseling and psychiatric medication.
             (6) Completion of a safety and treatment plan with the volunteer, if necessary.
             (7) Evacuation of such volunteer for medical treatment, accompanied by a Peace Corps staffer
             at the request of such volunteer. When evacuated to the United States, such volunteer shall be
             provided, to the extent practicable, a choice of medical providers including a mechanism for
             such volunteers to evaluate the provider.
             (8) An explanation to the volunteer of available law enforcement and prosecutorial options,
             and legal representation.

One of the objectives of this evaluation was to answer the question “Are victims of sexual assault
receiving the services mandated by section 8B of the Kate Puzey Act?” To answer this question,
we conducted a case review of all 59 reported sexual assaults that occurred between November
1, 2012 and February 28, 2013 and determined whether the services mandated by Section 8B(c)
of the Kate Puzey Act were provided.20 The following graph shows how the 59 cases in our
review were categorized.21




20
   Refer to the Objective, Scope, and Methodology section for more information about these cases and the way the
case review was conducted.
21
   This report reflects the crime categories in use at the time fieldwork was conducted. Refer to the Glossary for
definitions of these crime categories. The agency was planning to change the sexual assault crime categories based
on feedback from experts but those changes were not yet in effect.


Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                                             26
              Figure 2. Crime Classification of Cases Included in OIG Case review




                    Source: Crime Incident Reporting System, May 2013

Our analysis revealed that Volunteers who were victims of a sexual assault during this time
period were generally offered all applicable services that were available, although Volunteers
frequently declined some of the support options available to them. Providing Volunteers who are
victims of crime with choices about their support, including whether or not they choose to take
advantage of support services, is consistent with the victim-centered model the Peace Corps has
implemented.

There were also some support services the agency was not able to provide or that did not apply to
many of the cases. The most notable were the provision
of a SARL and the option to pursue restricted or
standard reporting. Those policies and related services    Victims of sexual assault were
were not in place and available to Volunteers between
                                                            usually offered all applicable
November 1, 2012 and February 28, 2013.22
Furthermore, some services did not apply due to the      services. Volunteers often declined
nature of the crime or the circumstances surrounding it.     available support options.
For example, forensic exams and emergency healthcare
was not needed in the majority of the cases, and most
Volunteers did not choose to be medically evacuated.

For a few of the mandated services, the lack of documentation and unclear expectations about
how to provide the service made it difficult to determine whether the services had been offered.
The most notable were the completion of safety plans and verification that staff had provided
Volunteers with an explanation of available law enforcement and prosecutorial options. Except
for OHS’s medical case management system, the agency does not have a centralized system or
method whereby staff can document the services that were offered to Volunteers, the information
provided regarding those services, and whether Volunteers chose to avail themselves of
applicable services. We had to rely on staff’s recollection of conversations or ask them to gather
emails and other documentation that could be used to verify that services were offered. In many

22
  Headquarters staff responsible for implementing restricted reporting and SARLs expect those services to be
available in September 2013 after the issuance of the respective policies.


Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                                           27
cases, no documentation existed, making it difficult to determine whether Volunteers had
declined the services or staff had failed to offer them. Headquarters staff has been reluctant to
ask Volunteers to sign a document when they refused support. However, after the restricted
reporting system is implemented, Volunteers will be asked to sign a document to confirm their
reporting preference and verify that various services were offered to them. If completed, the form
will help Volunteers hold the agency accountable for offering all required services and may serve
as a way for the agency to document actions taken and verify that staff is providing the support
that is expected.

The rest of this section provides more detail about each of the support services mandated by
section 8B(c) of the Kate Puzey Act and the results of our case review.

CASE REVIEW REQUIREMENT: RESTRICTED AND UNRESTRICTED REPORTING (KATE PUZEY
ACT SECTION 8B(C)(1))
Restricted reporting was not available during the case review timeframe; therefore, none of the
Volunteers in our case review were provided the option to pursue restricted or standard
reporting.

CASE REVIEW REQUIREMENT: PROVISION OF A SARL (KATE PUZEY ACT SECTION 8B(C)(2))
Because SARLs had not been selected and implemented during the case review timeframe, none
of the Volunteers in our case review were provided a SARL.


         None of the Volunteers included in the case review were offered restricted
           reporting or a SARL because those policies had not been implemented.


CASE REVIEW REQUIREMENT: PROVISION OF A VICTIM ADVOCATE (KATE PUZEY ACT
SECTION 8B(C)(2))
The services of the victim advocate were offered to Volunteers in 58 out of 59 cases; there was
one case that we could not confirm that services were offered. OVA indicated that victim
advocate services are offered in every case of sexual assault reported to the Peace Corps, but
many Volunteers choose not to take advantage of them. There was no evidence that victims in
need of a victim advocate was not provided with one.

CASE REVIEW REQUIREMENT: PROVISION OF A SEXUAL ASSAULT FORENSIC EXAM (KATE
PUZEY ACT SECTION 8B(C)(3))
A sexual assault forensic exam was conducted in two of 59 cases; both of these cases were
classified as rapes. A forensic exam was not provided in the other 57 cases for a variety of
reasons:

      The Volunteer did not want to participate in a sexual assault forensic exam
      The nature of the crime did not necessitate a sexual assault forensic exam




Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                              28
        The crime was reported to Peace Corps staff more than five days after the crime
         occurred23

There was no evidence that Volunteers who could have received a forensic exam were denied the
opportunity.


                         There was no evidence that Volunteers were denied
                         access to forensic exams or emergency healthcare.



CASE REVIEW REQUIREMENT: PROVISION OF EMERGENCY HEALTHCARE (KATE PUZEY ACT
SECTION 8B(C)(4))
Volunteers received emergency healthcare in six of 59 cases; four of these cases were classified
as rapes and the other two were classified as an “other sexual assault.” Emergency healthcare
was not provided to the other Volunteers because they did not sustain injuries that required
emergency healthcare. There was no evidence that Volunteers who needed emergency healthcare
were denied access.

CASE REVIEW REQUIREMENT: OPPORTUNITY TO EVALUATE EMERGENCY HEALTHCARE
PROVIDER (KATE PUZEY ACT SECTION 8B(C)(4))
All six of the Volunteers who obtained emergency healthcare were provided information about
Peace Corps’ healthcare provider evaluation tools. However, it was not possible to verify
whether the Volunteers took advantage of these evaluation tools because they are not mandatory
and the information is anonymous and cannot be tracked.

Posts used a variety of methods to inform Volunteers about the available feedback mechanisms,
including Volunteer newsletters, training sessions, and posters in the Peace Corps office. Staff
provides this information regardless of whether the Volunteer has been the victim of a crime or
has sought medical care.

CASE REVIEW REQUIREMENT: PROVISION OF COUNSELING AND PSYCHIATRIC MEDICATION
(KATE PUZEY ACT SECTION 8B(C)(5))
Our case review confirmed that Volunteers were almost always
provided the option to receive counseling; there were only two
cases that we were unable to confirm that counseling was        There were only two cases
offered. Despite being offered counseling support, many          in which we were unable
Volunteers did not take advantage of this service. Volunteers
received counseling in 30 of 59 cases, and psychiatric          to confirm that counseling
medication was available if deemed necessary. Volunteers               was offered.
received counseling in seven of eight rape cases and both major
sexual assaults. In 27 cases (one rape and 26 crimes classified

23
  During the case review timeframe, the agency’s medical guidelines stated that forensic evidence could be found
up to five days after the incident. Agency guidance is being revised in response to input from experts, and future
guidance will no longer include this time limitation.


Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                                             29
as “other sexual assaults”), staff reported that the Volunteer refused counseling. In two “other
sexual assault” cases, there was no documentation to support that counseling and psychiatric
medication was offered and/or provided if needed. In one of these cases, the CD reported that
counseling and psychiatric medication “was not appropriate” given the details of the incident. In
the other case, post staff could not recall whether counseling was offered and/or provided,
although they reported that non-medical staff provided support to the Volunteer after the
incident. The Volunteer’s medical file contained no information demonstrating that counseling
had been offered. The breakdown of services offered by crime classification is portrayed in the
following graph.

               Figure 3. Provision of Counseling Services by Crime Classification




                   * Includes cases in which the Volunteer chose not to pursue counseling
                     Source: Crime Incident Reporting System, May 2013

The case review also demonstrated that Volunteers were provided multiple ways of receiving
counseling, either from a PCMO, COU counselor, or non-Peace Corps counselor.24 Of the 30
Volunteers who received counseling, 17 received it from a Counseling and Outreach Unit
counselor and/or a non-Peace Corps mental health provider; the other 13 Volunteers received
support solely from their PCMO. Generally, PCMOs are medical practitioners, not mental health
providers, but they provided support sessions if the Volunteer wanted support but did not want to
work with a licensed mental health provider.




24
  PCMOs are field-based staff that provide medical support to Volunteers in-country. Headquarters-based staff in
the COU support Volunteers by phone or when they are medically evacuated to Washington, DC.


Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                                               30
CASE REVIEW REQUIREMENT: SAFETY PLAN (KATE PUZEY ACT SECTION 8B(C)(6))
It was difficult for us to determine whether the agency
fulfilled this requirement in the 59 cases we reviewed.
As previously discussed in Section A of this report, at Guidance regarding safety plans was
the time of our fieldwork, the agency had not defined
                                                         unclear, and staff could not provide
and communicated what a safety plan was, the essential
elements of such plan, when a safety plan was           sufficient evidence of a safety plan in
necessary, or how the plan should be documented and                six of nine cases.
distributed. In lieu of formal, documented guidance, we
spoke to a manager in SS who described its key
elements as follows:

      A safety plan is a structured conversation with the Volunteer, not a written document that
       is provided to the Volunteer upon completion; headquarters staff were clear that they did
       not want a safety plan document to be provided to Volunteers
      The elements discussed during safety planning vary depending on the nature of the
       incident
      A safety plan is needed if the perpetrator poses an ongoing threat to the Volunteer; for
       example, if the crime was committed by someone the Volunteer will possibly see again,
       such as a co-worker or host family member, including extended family. Safety plan
       discussions should also be held if the Volunteer is the victim of repeat offenses.

In reviewing the case data, we found nine cases in which, based on the criteria above, we
determined that a safety plan was needed because the situation posed an ongoing threat to the
Volunteer. In three cases, staff was able to provide sufficient evidence demonstrating that a
safety plan had been developed and documented. In the other six cases, there was no such
evidence. Staff involved in these six cases reported that safety conversations were held with the
Volunteers but they could not produce documentation that captured the details of the
conversation. Some staff could not identify any agency guidance on how to develop a safety
plan.


                Despite the absence of safety plans in most cases, we found
               evidence that post staff had taken immediate actions to ensure
                       Volunteer safety after sexual assaults occurred.



Even though safety plans were not always documented, it is important to note that we found
evidence that post staff had taken immediate actions to ensure Volunteer safety after sexual
assaults occurred. Emails the agency provided to us as well as notes captured in the agency’s
Crime Incident Reporting System (CIRS) demonstrated that staff moved Volunteers to safe
locations after incidences occurred and made safety improvements to Volunteers’ houses when
necessary. Staff also willingly changed Volunteers’ sites, host families, and partner organizations
to ensure their safety. However, most of these actions were not documented in a clear, easy-to-


Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                              31
obtain safety plan that listed the actions the staff and/or the Volunteer would take to respond to
the incident and mitigate future risk. Based on this information, we determined that the agency
took action to ensure Volunteers’ safety but did not always complete safety plans with
Volunteers when needed.

CASE REVIEW REQUIREMENT: TREATMENT PLAN (KATE PUZEY ACT SECTION 8B(C)(6))
                                     Treatment plans were created in all 31 cases in which the
                                     Volunteer received medical and/or mental healthcare.
Treatment plans were created in all PCMOs used the SOAP or Subjective, Objective,
    cases in which the Volunteer     Assessment, and Plan format to document their case notes.
                                     Included in this format is a plan, which is “a record of
     received medical or mental
                                     medications or treatments prescribed, further evaluations
             healthcare.             and follow-up planned, and any instructions or health
                                     education given to the Volunteer.”25 These plans were
                                     maintained in the Volunteer’s medical file. As reported in
Section A, the agency has been making changes to its treatment plan guidance and template.
Going forward, treatment plans will follow a different format, and the Volunteer should receive a
written copy.

CASE REVIEW REQUIREMENT: MEDICAL EVACUATION WITH STAFF ACCOMPANIMENT (KATE
PUZEY ACT SECTION 8B(C)(7))
Volunteers were medically evacuated in four of 59
cases; all four were rape cases, and all of these
                                                       All four Volunteers who were
Volunteers were evacuated to the United States or one
of its territories. All four of these Volunteers were medically evacuated were offered
offered the opportunity to have staff accompany them;  the opportunity to have staff
only two of the four accepted the offer. There was no
                                                             accompany them.
evidence that Volunteers were denied the right to be
medically evacuated or have staff accompany them.

CASE REVIEW REQUIREMENT: CHOICE OF MEDICAL PROVIDERS DURING MEDICAL
EVACUATION TO UNITED STATES (KATE PUZEY ACT SECTION 8B(C)(7))
Three of four Volunteers evacuated to the United States were provided with a choice of medical
providers. OHS staff stated that they are expected to discuss the provider choices with
Volunteers who have been medically evacuated; however, the case notes did not contain
evidence that this discussion occurred in the fourth case.

CASE REVIEW REQUIREMENT: OPPORTUNITY TO EVALUATE MEDICAL EVACUATION PROVIDER
(KATE PUZEY ACT SECTION 8B(C)(7))
All four of the Volunteers evacuated to the United States were provided information about the
Peace Corps’ healthcare provider evaluation tools. It was not possible to verify whether the
Volunteers took advantage of these evaluation tools because they are not mandatory and the
information is anonymous and cannot be tracked.



25
     A description of each SOAP note category is provided in the Peace Corps’ medical TG 210: Health Records.


Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                                            32
As previously reported, the agency uses a variety of methods to inform Volunteers about the
available feedback mechanisms, including the Medevac Guide for Washington, DC Volunteers
receive this information regardless of whether they have been the victim of a crime or sought
medical care within the country or during a medical evacuation. Notes entered into Peace Corps’
medical case management system demonstrate that staff often reminded the Volunteers that were
under their care about the available feedback mechanisms, such as the Health Care Consultant
Satisfaction Survey and Quality Nurse program.

CASE REVIEW REQUIREMENT: EXPLANATION OF LAW ENFORCEMENT, PROSECUTORIAL
OPTIONS, AND LEGAL REPRESENTATION (KATE PUZEY ACT SECTION 8B(C)(8))
It was difficult for us to determine whether the agency fulfilled this requirement in the 59 cases
we reviewed. Post staff generally did not document the conversations they held with Volunteers
concerning law enforcement, prosecutorial options, and legal representation so there was no way
for us to verify if or when a conversation took place and what was discussed. We were able to
obtain information regarding the number of Volunteers who reported the incident to police, but
we could not determine what led the Volunteer to make that decision. According to the crime
reports in CIRS, Volunteers reported the crime to local police in 11 of 59 cases; two of these
cases were rapes, one was a “major sexual assault,” and eight were classified as an “other sexual
assault.” In one instance where the case went to trial, we verified that Peace Corps acquired legal
counsel for the Volunteer.

According to the information staff entered into CIRS, there were a variety of reasons why
Volunteers chose not to report the incidents to police. Some Volunteers did not think the incident
was serious enough to warrant police action, some did not think the police would be able to do
anything about the crime, and others worried that police corruption or community reaction could
make it counterproductive to file a report.


              Staff generally did not document the conversations with Volunteers
               concerning the law enforcement, prosecutorial options, and legal
         representation, making it difficult to confirm that these discussions occurred.


It is also important to note that some of the actions that are classified as a sexual assault in the
United States are not considered crimes in certain countries where Peace Corps serves; therefore,
no police or law enforcement activity would take place if the Volunteer tried to report the
incident. Volunteers should be clearly and accurately informed of their options, which will vary
from country to country.

CONCLUSION
When reviewing the 59 reported sexual assaults that occurred between November 1, 2012 and
February 28, 2013, we determined that, with the few exceptions described above, victims of
sexual assault were offered all applicable services. Two services that could not be offered were
the option of restricted reporting and the provision of a SARL; the agency advised us that these
services will be available in September 2013 after the related policies have been issued. Even


Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                             33
though a variety of services were offered, Volunteers declined many of them and others did not
apply because of the nature of the case, or the timing of notifying staff that a crime had occurred.
Some services, specifically the completion of a safety plan and an explanation of law
enforcement and prosecutorial options, were hard to verify. In most cases, staff did not document
these conversations with Volunteers so it was not possible to independently verify if and when
the conversations occurred and determine whether complete and accurate information was
provided to Volunteers.




Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                             34
                 OBJECTIVE, SCOPE, AND METHODOLOGY
The purpose of OIG is to prevent and detect fraud, waste, abuse, and mismanagement and to
promote economy, effectiveness, and efficiency in government. In February 1989, the Peace
Corps OIG was established under the Inspector General Act of 1978 and is an independent entity
within the Peace Corps. The Inspector General is under the general supervision of the Peace
Corps Director and reports both to the Director and Congress.

The OIG Evaluation Unit provides senior management with independent evaluations of all
management and operations of the Peace Corps, including overseas posts and domestic offices.
OIG evaluators identify best practices and recommend program improvements to comply with
Peace Corps policies.

The Evaluation Unit announced its intent to conduct the congressionally mandated evaluation of
Peace Corps’ sexual assault policy on November 14, 2012. The evaluation addressed the
following questions:

          Has Peace Corps developed and implemented a sexual assault policy that complies
           with section 8B of the Kate Puzey Act?
          Has all overseas staff received training on the Peace Corps’ sexual assault policy?
          Are victims of sexual assault receiving the services mandated by section 8B of the
           Kate Puzey Act?

Lead Evaluator Heather Robinson, Senior Evaluator Susan Gasper, and Evaluation Apprentice
Tim Shaw conducted the fieldwork and analysis for this evaluation from November 14, 2012 to
June 30, 2013. This research included: a review of the policies provided by the agency related to
the requirements of the Kate Puzey Act; interviews with staff representing OHS, SS, OGC, and
OVA; interviews with experts in the field of sexual assault risk-reduction and response; and a
case review of all sexual assault cases occurring between November 1, 2012 and February 28,
2013.

EVALUATION OF PEACE CORPS POLICY
The Kate Puzey Act contains two main requirements of the agency’s sexual assault policy that
were reviewed in this evaluation. The first is a series of specific elements that needed to be
included in the policy. In order to assess the Peace Corps’ compliance with this requirement, we
conducted a content analysis of the agency’s policies. The policies provided by the agency were
compared to the policy requirements in the Kate Puzey Act to determine whether or not the
agency met each requirement.

The second requirement was that the agency’s policies be developed in accordance with best
practices and in consultation in experts. We interviewed staff to identify which experts were
involved in the development of Peace Corps’ policy. We also attended SAAC meetings and
interviewed experts in the field to determine their level of involvement in policy development
and to help identify relevant best practices. As part of the content analysis described above, we
reviewed each policy provided by the agency for the inclusion of best practices. In certain cases,


Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                             35
expert review was deemed unnecessary, particularly when the policy requirement was
straightforward or not associated with a professional practice (e.g. the Act requires that the
policies be applicable to all posts).

EVALUATION OF STAFF TRAINING
In order to monitor the status of staff training on Guidelines to Responding to Rape and Sexual
Assault at all overseas posts, we contacted country desk officers for all 64 posts. We requested
that country desk officers report the dates of the most recent training for all staff. These training
records were used to determine which posts had conducted training within the past year and
which staff was overdue for training or had not ever been trained.

In addition to analyzing the status of the Guidelines to Responding to Rape and Sexual Assault
training we attended two of the three 2013 CMEs that included Kate Puzey Act related content.
While attending we observed the sessions provided as well as the feedback provided by trainees.

CASE REVIEW
The Kate Puzey Act also required that we conduct a case review of a “statistically significant
number of cases.” In order to conduct this review, we reviewed cases from a four month time
period, November 1, 2012 to February 28, 2013. We collected data on all reported cases of
sexual assault that took place during that time period in order to determine whether victims had
received the services mandated by the Kate Puzey Act. For each case, we reviewed the CIRS
crime report, requested documentation from the appropriate post, and reviewed submitted
documentation. When documentation was not available, we requested testimonial evidence of
services provided from post staff.

It was difficult to determine what sample of cases would be necessary to achieve statistical
significance because several key pieces of information required to construct a sample were
unavailable: the population size, desired confidence level, and margin of error. Therefore, instead
of constructing a sample, our analysis included every reported case of sexual assault that
occurred during our data collection period.

This evaluation was conducted in accordance with the Quality Standards for Inspections, issued
by the Council of the Inspectors General on Integrity and Efficiency. The evidence, findings, and
recommendations provided in this report have been reviewed by agency stakeholders affected by
this review.




Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                                36
                                INTERVIEWS CONDUCTED
As part of this evaluation, interviews were conducted with 11 representatives from Peace Corps
headquarters in Washington, DC and five other stakeholders and experts.

                              Table 2. Peace Corps Staff Interviews
                            Position                              Office
         Attorney Advisor                             General Counsel
         Policy and Program Analyst                   General Counsel
         Clinical Social Worker                       Office of Health Services/Counseling
                                                      and Outreach Unit
         Deputy Director, Counseling and Outreach     Office of Health Services/Counseling
         Unit                                         and Outreach Unit
         Director, Office of Medical Services         Office of Health Services/Office of
                                                      Medical Services
         Expert                                       Office of Health Services/Office of
                                                      Medical Services
         Quality Improvement Manager                  Office of Health Services/Office of
                                                      Medical Services
         Chief, Operations Support                    Office of Safety and Security
         Lead Security Specialist                     Office of Safety and Security
         Monitoring & Evaluation Specialist           Office of Safety and Security
         Director, Office of Victim Advocacy          Office of Victim Advocacy
        Data as of June 2013.

                      Table 3. External Stakeholder and Expert Interviews
                          Position                          Organization
         Director of Public Policy                    National Center for Victims of Crime
         Medical Director                             St. Luke’s Hospital’s Sexual Assault
                                                      Treatment Center
         Independent Medical Practice Professional    Not applicable
         Senior Victim Assistant Advisor              Secretary of Defense, Sexual Assault
                                                      Prevention and Response Office
         Vice President of Victim Services            Rape, Abuse and Incest National
                                                      Network
        Data as of June 2013.




Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                         37
                          LIST OF RECOMMENDATIONS
WE RECOMMEND:

1.   That the agency clarify the procedures for obtaining a sexual assault forensic exam for a
     Volunteer who has filed a restricted report if the forensic exam does not trigger an official
     investigation, and revise policies accordingly.

2.   That the associate director for Safety and Security revise agency policy to provide clear
     guidance on when a safety plan is needed, the essential elements of such a plan, and how the
     plan should be documented and distributed.

3.   That the agency revise all relevant procedures to direct staff to provide a choice of medical
     providers to victims of sexual assault who are medically evacuated to the United States.

4.   That the agency clarify what documents constitute its official comprehensive sexual assault
     policy and make those documents easily identifiable and accessible to staff.

5.   That the agency develop a process for the systematic review of all sexual assault advisory
     council recommendations, outlining clearly the offices responsible for implementing each
     recommendation with which the agency concurs.

6.   That the agency train all overseas staff on the sexual assault policy per the Kate Puzey Act.

7.   That the agency develop and communicate expectations for training newly hired overseas
     staff, including training methods and deadlines.

8.   That the agency develop and implement a method to track training records to verify that it is
     meeting the requirements of the Kate Puzey Act.




Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                                 38
              APPENDIX A: LIST OF ACRONYMS AND GLOSSARY


        CD                           Country Director
        CDC                          Centers for Disease Control and Prevention
        CIRS                         Crime Incident Reporting System
        CME                          Continuing Medical Education
        COU                          Counseling and Outreach Unit
        DOD                          Department of Defense
        HIV                          Human Immunodeficiency Virus
        IPS                          Interim Policy Statement
        MOST                         Medical Overseas Staff Trainings
        MS                           Peace Corps Manual Section
        OGC                          Office of General Counsel
        OGO                          Office of Global Operations
        OHS                          Office of Health Services
        OIG                          Office of Inspector General
        OVA                          Office of Victim Advocacy
        PCMO                         Peace Corps Medical Officer
        PII                          Personally Identifiable Information
        PTSD                         Post Traumatic Stress Disorder
        RPCV                         Returned Peace Corps Volunteer
        SAAC                         Sexual Assault Advisory Council
        SAFE                         Sexual Assault Forensic Examination
        SARC                         Sexual Assault Response Coordinator
        SARL                         Sexual Assault Response Liaison
        SOAP                         Subjective, Objective, Assessment, and Plan
        SOP                          Standard Operating Procedure
        SS                           Office of Safety and Security
        SSC                          Safety and Security Coordinator
        STI                          Sexually Transmitted Illness
        TG                           Medical Technical Guideline

Glossary26

Major Sexual Assault. Intentional or forced contact with the victim’s breast, genitals, mouth,
buttocks, or anus OR disrobing of the Volunteer or offender without contact of the Volunteer’s
aforementioned body parts, for sexual gratification AND any of the following:
1) the use of a weapon by the offender, OR
2) physical injury to the victim, OR
3) when the victim has to use substantial force to disengage the offender.

Other Sexual Assault. Unwanted or forced kissing, fondling, and/or groping of the breasts,
genitals, mouth, buttocks, or anus for sexual gratification.

26
     Definitions taken from CIRS prior to September 1, 2013.


Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                             39
Rape. Penetration of the vagina or anus with a penis, tongue, finger, or object without the
consent and/or against the will of the Volunteer. This includes when a victim is unable to give
consent because of ingestion of drug and/or alcohol. Rape also includes forced oral sex, where:
1) the victim’s mouth contacts the offender’s genital or anus, OR
2) the offender’s mouth contacts the victim’s genital or anus, OR
3) the victim is forced to perform oral sex on another person.

Any unsuccessful attempts to penetrate the vagina or anus are also classified as Rape (formerly
Attempted Rape).




Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                          40
   APPENDIX B: AGENCY’S RESPONSE TO THE PRELIMINARY
                        REPORT




Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy   41
Recommendation 1
That the agency clarify the procedures for obtaining a sexual assault forensic exam for a
Volunteer who has filed a restricted report if the forensic exam does not trigger an official
investigation and revise policies accordingly.

       Concur
       The IPS 3-13 Procedures for Responding to Sexual Assault have been revised to specifically
       provide that, if having a SAFE does not require notification to law enforcement or otherwise
       trigger an official investigation, the PCMO should explain to the Volunteer that, if she elects
       to undergo a SAFE, the report can remain a restricted report.

       Documents Submitted:
          • IPS 3-13 Procedures for Responding to Sexual Assault

       Documents to be Submitted:
          • Technical Guidance 542 - Sexual Assault Examination & Forensic Evidence
            Collection

       Status and Timeline for Completion:
           • January 2014

Recommendation 2
That the associate director for Safety and Security revise agency policy to provide clear
guidance on when a safety plan is needed, the essential elements of such a plan, and how the
plan should be documented and distributed.

       Concur
       The Office of Safety and Security will work with the Office of Victim Advocacy,
       OGO/Regions and the Counseling and Outreach Unit to incorporate guidance and a template
       in the Procedures for Responding to Sexual Assault that outlines the process and tools to be
       used for developing a Safety Plan. The guidance and template will be incorporated into the
       Procedures by January 2014.

       Documents to be Submitted:
          • Safety Plan Template

       Status and Timeline for Completion:
           • January 2014

Recommendation 3
That the agency revise all relevant procedures to direct staff to provide a choice of medical
providers to victims of sexual assault who are medically evacuated to the United States.




                                                  2
       Concur
       The procedures that direct staff to provide a choice medical providers to victims of sexual
       assault who are medical evacuated to the U.S. have been updated and highlighted in the
       relevant sections of the corresponding documents.

       Documents Submitted:
           • TG 540
       Status and Timeline for Completion:
           • May 26, 2013

Recommendation 4
That the agency clarify what documents constitute its official comprehensive sexual assault
policy and make those documents easily identifiable and accessible to staff.

       Concur:

       The Kate Puzey Act requires the Peace Corps to adopt a comprehensive sexual assault policy
       and, in compliance with this statutory mandate, the Peace Corps has adopted several new
       policies and policy revisions, as well as implementing procedures. A new entry for
       Comprehensive Sexual Assault Policies will be added to the Peace Corps Manual folder on
       the Intranet. That new entry will link to a page with a listing of all the documents that
       constitute the comprehensive sexual assault policy required by various provisions of the Kate
       Puzey Act. All policies are on the Intranet currently and by December 1, 2013 all the policies
       will reside under one heading “Comprehensive Sexual Assault Policies” on the Intranet, in
       addition to having them separated out. By the end of fiscal year 2014 all the policies will be
       combined into one omnibus policy that addresses the requirements of the Kate Puzey Act.

       Documents to be Submitted:
          • Comprehensive Sexual Assault Policy
          • Policy summary sheet v2

       Status and Timeline for Completion:
           • September 2013

Recommendation 5
That the agency develop a process for the systematic review of all sexual assault advisory
council recommendations, outlining clearly the offices responsible for implementing each
recommendation with which the agency concurs.

       Concur
       The Office of Safety and Security currently reviews all Sexual Assault Advisory Council
       recommendations and will develop a procedure the describes the review process by
       December 1, 2013.


       Documents to be Submitted:

                                                  3
           • Sexual Assault Advisory Council Report Review Process

       Status and Timeline for Completion:
           • December 2013

Recommendation 6
That the agency train all overseas staff on the sexual assault policy per the Kate Puzey Act.

       Concur

       Overseas Staff Training schedule includes training modules related to the Kate Puzey Act
       policies and protocols through presentations conducted by the Office of the General Counsel,
       Office of Global Operations, and the Office of Safety and Security.

       The following overseas staff were trained in the sexual assault policies during in-person
       trainings Summer 2013: CDs, PCMOs, SSCs, SARLs and PCSSOs. The Agency developed
       and launched online training in the sexual assault policies for all other overseas staff on
       9/1/2013. The guidance given with that online training was that current staff (excluding those
       trained in person during Summer 2013) had to complete the online training by 12/2/2013.
       The guidance further stated that new staff hired after 12/2/2013 had to take the online training
       within 30 days of being hired.

       For the Office of Health Services, Community Back-Up providers who provide relief
       coverage for PCMOs are trained by the PCMO on TG 185, Backup Health Care Providers,
       Attachment A to receive sexual assault response training and written guidelines that will
       equip them to respond to reports of sexual assault from Volunteers and remain in compliance
       with the specific guidance in TG 185 attachment A (Oct 2013) and TG 540 attachment L
       (Oct. 2013). OHS/SANE Staff will provide clinical support for back-up providers who
       provide care to victims of sexual assault Annual Kate Puzey Act updates and policy review
       will become a permanent tract at all CMEs. CME attendance is required of all PCMOs, with
       unusual exceptions, as a condition of continued employment. The updates will be made
       available online to PCMOs unable to attend the CME.

       Documents Submitted:
          • Technical Guidance 185 – Back-up Provider Information Sheet 10 2013
          • Technical Guidance 540 - Clinical Management of Sexual Violence, Attachment L

       Status and Timeline for Completion:
           • Current staff online training to be completed by 12/2/2013
           • New hires after 12/2/2013 within 30 days of hire date.

Recommendation 7
That the agency develop and communicate expectations for training newly hired overseas staff,
including training methods and deadlines.

       Concur

                                                  4
       The Office of Human Resource Management (HRM) will provide to newly hired employees
       mandatory training requirements, initially addressing US direct hire (USDH) employees and
       subsequently personal services contractors (PSC).

       HRM in coordination with OGO/Regions, OHS, OVA and OSS will develop a short-term solution to
       ensure staff are trained per expectations of the Kate Puzey Act.

       All Peace Corps staff are required to complete the online training courses related to the Kate Puzey
       Volunteer Protection Act found on the Peace Corps University.

       In addition to the online Sexual Assault Risk Reduction Response Training offered by Peace Corps
       University, all newly hired PCMOs, including long-term Temporary Duty (TDY) PCMOs who are not
       current Peace Corps Contractors, are required to receive Sexual Assault training consistent with IPS 3-
       13 Responding to Sexual Assault and Technical Guidelines 540 and 545 within one month of hire.
       This requirement has been incorporated in the mentoring program and is to be documented on the
       Mentoring Checklist TG 187 Attachment B. This document becomes a permanent record in the
       PCMO’s OHS personnel file. Starting February 2014, the annual Medical Overseas Staff Training
       (MOST) for PCMOs hired in the previous 12 months will include a Sexual Assault Training Track.

       Documents Submitted:
          • TG 187: PCMO Mentoring Checklist Oct2013 Attachment B
          • Learning Space Screen Shot – LS_SS_SexualAssault_coursepage.png
          • Peace Corps Screen Shot – PCU_SS_SexualAssault_coursepage.png

       Documents to be Submitted:
          • Training guidance on training newly hired overseas staff on relevant sexual
            assault policy and procedures.

       Status and Timeline for Completion:
          • March 2014 for interim solution
          • October 2014 for longer term solution

Recommendation 8
That the agency develop and implement a method to track training records to verify that it is
meeting the requirements of the Kate Puzey Act.

       Concur:

       Human Resource Management (HRM) and Office of Programming and Training Support are
       working together to acquire a Learning Management System which will track the training
       requirements for USDHs and PSCs.

       In the interim, HRM in coordination with OGO/Regions, OHS, OVA and OSS will develop a
       short-term solution to ensure training records are also being managed by the appropriate
       departments.

         Documents to be Submitted:


                                                      5
   •   Training guidance on the tracking of training for newly hired staff on relevant sexual
       assault policy and procedures.

Status and Timeline for Completion
   • March 2014 – interim solution
   • September 2014 – longer term solution




                                          6
                         APPENDIX C: OIG COMMENTS
Management concurred with all eight recommendations. Based on the documentation provided,
we closed one recommendation: number three. In its response, management described actions it
is taking or intends to take to address the issues that prompted each of our recommendations. We
wish to note that in closing recommendations, we are not certifying that the agency has taken
these actions or that we have reviewed their effect. Certifying compliance and verifying
effectiveness are management’s responsibilities. However, when we feel it is warranted, we may
conduct a follow-up review to confirm that action has been taken and to evaluate the impact.

Seven recommendations, numbers 1-2 and 4-8, remain open. We will review and consider
closing these recommendations when the documentation reflected in the agency’s response to the
preliminary report is received. For recommendations two and six, additional documentation is
required. These recommendations remain open pending confirmation from the chief compliance
officer that the documentation reflected in our analysis below is received.

2. That the associate director for Safety and Security revise agency policy to provide clear
   guidance on when a safety plan is needed, the essential elements of such a plan, and how
   the plan should be documented and distributed.

       Concur
       The Office of Safety and Security will work with the Office of Victim Advocacy,
       OGO/Regions and the Counseling and Outreach Unit to incorporate guidance and a
       template in the Procedures for Responding to Sexual Assault that outlines the process and
       tools to be used for developing a Safety Plan. The guidance and template will be
       incorporated into the Procedures by January 2014.

       Documents to be Submitted:
           Safety Plan Template

       Status and Timeline for Completion:
           January 2014

       OIG Analysis: In addition to providing the safety plan template, please also submit any
       related guidance to staff that is incorporated into the Procedures for Responding to
       Sexual Assault as reflected in the agency’s response.

6. That the agency train all overseas staff on the sexual assault policy per the Kate Puzey
   Act.

       Concur
       Overseas Staff Training schedule includes training modules related to the Kate Puzey Act
       policies and protocols through presentations conducted by the Office of the General
       Counsel, Office of Global Operations, and the Office of Safety and Security.



Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                          47
       The following overseas staff were trained in the sexual assault policies during in-person
       trainings Summer 2013: CDs, PCMOs, SSCs, SARLs and PCSSOs. The Agency
       developed and launched online training in the sexual assault policies for all other
       overseas staff on 9/1/2013. The guidance given with that online training was that current
       staff (excluding those trained in person during summer 2013) had to complete the online
       training by 12/2/2013. The guidance further stated that new staff hired after 12/2/2013
       had to take the online training within 30 days of being hired.

       For the Office of Health Services, Community Back-Up providers who provide relief
       coverage for PCMOs are trained by the PCMO on TG 185, Backup Health Care
       Providers, Attachment A to receive sexual assault response training and written
       guidelines that will equip them to respond to reports of sexual assault from Volunteers
       and remain in compliance with the specific guidance in TG 185 attachment A (Oct 2013)
       and TG 540 attachment L (Oct. 2013). OHS/SANE Staff will provide clinical support for
       back-up providers who provide care to victims of sexual assault Annual Kate Puzey Act
       updates and policy review will become a permanent tract at all CMEs. CME attendance is
       required of all PCMOs, with unusual exceptions, as a condition of continued
       employment. The updates will be made available online to PCMOs unable to attend the
       CME.

       Documents Submitted:
           Technical Guidance 185 – Back-up Provider Information Sheet 10 2013
           Technical Guidance 540 - Clinical Management of Sexual Violence, Attachment L

       Status and Timeline for Completion:
           Current staff online training to be completed by 12/2/2013
           New hires after 12/2/2013 within 30 days of hire date.

       OIG Analysis: We acknowledge receiving the agency’s description of its plans to train
       all overseas staff by December 2, 2013. Please provide training records or some other
       method to verify that staff were trained by that date.




Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                           48
             APPENDIX D: EVALUATION COMPLETION AND
                          OIG CONTACT

EVALUATION                      This evaluation was conducted under the direction of
COMPLETION                      Assistant Inspector General for Evaluations Jim O’Keefe,
                                by Lead Evaluator Heather Robinson, Senior Evaluator
                                Susan Gasper, and Evaluation Apprentice Tim Shaw.
                                Additional contributions were made by Lisa Chesnel,
                                Logan Davis, Christopher Fontanesi, Reuben Marshall,
                                Ben Simasek, and Rebecca Underhill.




                                Jim O’Keefe
                                Assistant Inspector General for Evaluations


OIG CONTACT                     Following issuance of the final report, a stakeholder
                                satisfaction survey will be distributed to Peace Corps staff.
                                If you wish to comment on the quality or usefulness of
                                this report to help us improve our products, please contact
                                Assistant Inspector General for Evaluations Jim O’Keefe
                                at jokeefe@peacecorps.gov or 202.692.2904.




Final Evaluation Report: Peace Corps Volunteer Sexual Assault Policy                            49
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
   fraud, or unlawful activity involving Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.




                          Contact OIG

                         Reporting Hotline:
          U.S./International:      202.692.2915
          Toll-Free (U.S. only):   800.233.5874

          Email:                   OIG@peacecorps.gov
          Web Form:                peacecorps.gov/OIG/ContactOIG

          Mail:                    Peace Corps Office of Inspector General
                                   P.O. Box 57129
                                   Washington, D.C. 20037-7129



                     For General Information:
          Main Office:             202.692.2900
          Website:                 peacecorps.gov/OIG
            Twitter:               twitter.com/PCOIG
